Office of the Inspector General
Semiannual Report to Congress
                                                                   APRIL 1, 2012–SEPTEMBER 30, 2012




       T
                 he mission of the Office of Inspector General (OIG) is to promote the integrity, efficiency, and
                 effectiveness of the critical programs and operations of the United States (U.S.) Securities and
                 Exchange Commission (SEC or Commission). This mission is best achieved by having an effec-
       tive, vigorous, and independent office of seasoned and talented professionals who perform the following
       functions:

       •	   Conducting independent and objective audits, evaluations, investigations, and other reviews
            of SEC programs and operations;
       •	   Preventing and detecting fraud, waste, abuse, and mismanagement in SEC programs and
            operations;
       •	   Identifying vulnerabilities in SEC systems and operations and recommending constructive
            solutions;
       •	   Offering expert assistance to improve SEC programs and operations;
       •	   Communicating timely and useful information that facilitates management decision making
            and the achievement of measurable gains; and
       •	   Keeping the Commission and Congress fully and currently informed of significant issues and
            developments.




                                                         APRIL 1, 2012–SEPTEMBER 3O, 2012                       |   i
contentS




    Message from the interim Inspector General .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 1


    Management and Administration.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 5
    Agency Overview.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 5
    OIG Staffing .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 5


    Congressional TESTIMONY, Requests, and Briefings .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 7


    The Inspector General’s Statement on the SEC’s Management and
    Performance Challenges. .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .9
    Procurement and Contracting .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 9
    Information Security .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 10
    Continuity of Operations Program.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  11
    Financial Management .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  12


    Advice and Assistance Provided to the Agency.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  13


    Coordination with Other Offices of Inspector General .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  15


    Audits and Evaluations .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 17
    Overview .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  17
    	Audits.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  17
    	Evaluations.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  17
    	   Audit Follow-Up and Resolution .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 18
    Audits and Evaluations Conducted.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  18
    	   Review of the SEC’s Continuity of Operations Program (Report No. 502) .  .  .  .  .  .  .  .  18
    	   SEC’s Records Management Practices (Report No. 505) .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  19
    	   The Office of International Affairs Internal Operations and
    		      Travel Oversight (Report No. 508).  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  22
    Pending Audits and Evaluations.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 23
    	   SEC’s Whistleblower Program.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  23
    	   Support, Expert, and Consulting Services Contracts at the SEC .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 24
    	   Evaluation of the SEC’s Systems Certification and Accreditation Process .  .  .  .  .  .  .  .  .  . 24
    	   Hiring Practices for Senior Level Positions at the SEC .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  24




                                                                      APRIL 1, 2012–SEPTEMBER 3O, 2012                                         |   iii
	 Filing Fee Refund Requests .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 25
	 The SEC’s Controls Over Sensitive and Proprietary Information Collected and
		     Exchanged With the Financial Stability Oversight Council.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  25
	 Fiscal Year 2012 Federal Information Security Management Act (FISMA)
		Assessment.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  26


Investigations.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  27
Overview.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 27
Investigations and Inquiries Conducted .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 28
	   Investigation Into Misuse of Resources and Violations of Information
		       Technology Security Policies Within the Division of Trading and
		       Markets (Report No. OIG-557) .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 28
	   Physical Altercation and Security Violations by a Division of Enforcement
		       Contractor (Report No. OIG-572) .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  30
	   Fraud, Falsification, and Misuse of Computer Resources by
		       Headquarters Employees (Report No. OIG-563) .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 31
	   Unauthorized Disclosure of Nonpublic Information Concerning an
		       Enforcement Matter (Report No. OIG-575) .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  32
	   Allegations of Theft and/or Improper Handling of SEC Blackberries
		       (Report No. OIG-566) .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  33
	   Allegation of Leak of Draft Interagency Rule (PI 12-01) .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 33
	   Allegations of Misuse of Official Time and Violation of Time and
		       Attendance Rules (PI 12-16) .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 34


Review of Legislation and Regulations .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  35


MANAGEMENT DECISIONS .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  37
Status of Recommendations with No Management Decisions.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  37
Revised Management Decisions .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 37
Agreement with Significant Management Decisions .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  37
Instances Where Information was Refused.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  37


TABLES	 .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  39
Table 1 	List of Reports: Audits and Evaluations.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  39
Table 2 	Reports Issued with Costs Questioned or Funds Put to
              Better Use (Including Disallowed Costs) .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  39
Table 3 	Reports with Recommendations on Which Corrective Action
              Has Not Been Completed.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  40
Table 4 	Summary of Investigative Activity.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  45




iv   |   OIG SEMIANNUAL REPORT TO CONGRESS
Table 5 	Summary of Complaint Activity. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 46
Table 6 	References to Reporting Requirements of the
             Inspector General Act.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  47


APPENDIx A. peer reviews of OIG operations.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  49
Peer Review of the SEC OIG’s Audit Operations .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 49
Peer Review of the SEC OIG’s Investigative Operations.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  49


Appendix B. ANNUAL REPORT ON THE OIG SEC EMPLOYEE SUGGESTION HOTLINE—
ISSUED PURSUANT TO SECTION 966 OF THE DODD-FRANK ACT .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 50
Introduction and Background .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  50
Summary of Employee Suggestions and Allegations Received.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  50
Examples of Suggestions Received.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 51
	    EDGAR Electronic Refund Requests .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 51
	    Hard Copy CCHs.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 52
	    Employee Directories.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  52
	    Paper and Supply Waste .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  52
Examples of Allegations Received .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 53
	    Replacement of Physical Security Systems in Regional Offices .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  53
	    Referrals to the Office of Investigations .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  53
Conclusion 	.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  54




                                                                   APRIL 1, 2012–SEPTEMBER 3O, 2012                                         |   v
Message from the Interim Inspector General


I
     am pleased to present this Semiannual Report to Congress as Interim Inspector
     General of the U.S. Securities and Exchange Commission (SEC or Commission).
     This report describes the work of the SEC Office of Inspector General (OIG) for
the period from April 1, 2012, to September 30, 2012. I am concurrently serving as
the Inspector General of the Federal Deposit Insurance Corporation. On May 30,
2012, I was designated Interim Inspector General of the SEC until such time as the
Commission hires a permanent Inspector General.

The audits, reviews, and investigations described       At my request, in early June 2012, the United States
in this report illustrate the commitment of the SEC     Postal Service (USPS) OIG commenced a com-
OIG to promoting the efficiency and effectiveness       prehensive and independent investigation into the
of the SEC, as well as the impact the Office has had    allegations of misconduct by current and former
on SEC programs and operations.                         SEC OIG management. In late September 2012, the
                                                        USPS OIG completed its investigation and issued
At the time of my designation as Interim Inspector      a report. I am now reviewing the evidence in the
General, the SEC OIG faced a number of challeng-        report to determine the disposition of the three
es, including those presented by a complaint alleging   reports issued, or to be issued, by the SEC OIG. I
misconduct by current and former SEC OIG man-           expect to complete my review by November 2012.
agement. This complaint, which had been reported
in the press, called into question the integrity of     The SEC OIG still faces significant challenges,
three reports issued by or to be issued by the SEC      including those presented by depleted staffing levels.
OIG. Almost immediately upon my designation             Several key staff members departed during the
as Interim Inspector General, I coordinated with        reporting period, including the Deputy Inspector
the Council of the Inspectors General on Integrity      General and a senior auditor. We will be working
and Efficiency (CIGIE) to identify another OIG to       closely with the SEC’s Office of Human Resources
independently investigate the allegations involving     to fill these and other critical positions as quickly as
the SEC OIG.                                            possible.



                                                        APRIL 1, 2012–SEPTEMBER 3O, 2012                    |   1
Additionally, since my designation as the SEC           The Office of Audits also issued a report on the
Interim Inspector General, I have reviewed the          SEC’s Office of International Affairs (OIA) internal
Office’s organizational structure and operational       operations and travel oversight. This report found
processes and have begun to implement certain           that OIA’s operational units had effective policies,
changes and improvements. For example, under            procedures, and controls, but that improvements
my direction, the Office of Audits has reorganized      were needed to strengthen OIA’s oversight of
to add two supervisory auditor positions and plans      international travel by SEC staff. Further, during
to move towards a team approach to auditing. I          the reporting period, the Office of Audits worked
have also undertaken measures designed to improve       closely with SEC management to close 69 recom-
communications and coordination between the             mendations arising out of OIG reports.
Office of Audits and Office of Investigations. For
example, we arranged to have the CIGIE Training         The SEC OIG’s Office of Investigations completed
Institute conduct an audit overview training session    numerous investigations and inquiries during the
for the SEC OIG’s investigators. Additionally, I have   reporting period and issued seven reports of inves-
sought to develop a more unified and coordinated        tigation or inquiry. Specifically, we issued reports
approach to guide and foster the SEC OIG’s rela-        related to the misuse of resources and violations of
tionship with Congress. To that end, I designated       information technology security policies within the
an OIG attorney to serve as the SEC OIG’s primary       Division of Trading and Markets, security viola-
legislative contact and be responsible for track-       tions by a Division of Enforcement contractor, and
ing legislative developments and coordinating the       falsification and misuse of computer resources by a
Office’s responses to Congressional requests.           Headquarters employee. We also issued reports con-
                                                        cerning the unauthorized disclosure of nonpublic
Notwithstanding the challenges faced by the SEC         information relating to an SEC enforcement matter
OIG during this semiannual reporting period,            and draft regulations being promulgated by the SEC
the SEC OIG staff has remained committed to             and other federal financial regulatory agencies pur-
achieving the Office’s mission and promoting the        suant to the Dodd-Frank Wall Street Reform and
efficiency and effectiveness of the SEC’s programs      Consumer Protection Act (Dodd-Frank Act). Our
and operations. During this reporting period, the       investigative reports resulted in three referrals to the
Office of Audits issued reports on agency operations    agency for consideration of appropriate administra-
related to the SEC’s continuity of operations pro-      tive action based on the OIG’s findings, two refer-
gram (COOP) and records management practices.           rals to the OIG’s Office of Audits for consideration
These reports found that while the agency had           of audit follow-up work, and several specific recom-
taken steps to enhance both its COOP and records        mendations for improvement in agency policies and
management programs, significant improvements           procedures.
were still needed in these areas. For example, our
COOP report made a total of 38 recommendations          Also during the past year, the SEC OIG has contin-
designed to strengthen the SEC’s COOP and ensure        ued to operate the OIG SEC Employee Suggestion
that the SEC can continue to perform its critical       Program, which was initiated in September 2010
mission functions during an emergency, and SEC          under the Dodd-Frank Act. This program continued
management concurred with all of these recommen-        to be active and effective during fiscal year 2012,
dations. Based upon our report, we have identified      as indicated in our annual report on this program,
COOP as a management challenge facing the SEC.          which is included at Appendix B. During the past




2   |   OIG SEMIANNUAL REPORT TO CONGRESS
year, we received and reviewed a total of 53 sugges-      the Commission and Congress, and I reaffirm the
tions and allegations, with several suggestions lead-     SEC OIG’s commitment to the Commission and
ing to tangible improvements in the SEC’s programs        Congress as we carry out the OIG mission.
and operations and, in some instances, cost savings.
                                                          I appreciate the significant support the Office has
In closing, we will continue to strive to improve the     received from Congress, the SEC Chairman and
efficiency and effectiveness of the SEC OIG through       Commissioners, and the SEC’s management team
organizational and procedural changes and by              and employees, as well as the inspector general com-
growing our staff resources. We will also continue        munity. I also wish to acknowledge the service and
to work collaboratively with SEC management to            leadership provided by the former Deputy Inspector
assist the agency in addressing the challenges it faces   General. Finally, I would like to express my grati-
as identified in this report, which include procure-      tude to all the SEC OIG staff, who have continued
ment and contracting, information security, COOP,         to demonstrate their dedication and commitment to
and financial management. This report truly reflects      the work and mission of the SEC OIG during this
our dual responsibility to report independently to        period of transition for the Office.




                                                                       Jon T. Rymer
                                                                       Interim Inspector General




                                                          APRIL 1, 2012–SEPTEMBER 3O, 2012                |   3
Management and Administration
AGENCY OVERVIEW                                           making Board (MSRB), and the Securities Inves-



T
         he SEC’s mission is to protect investors;        tor Protection Corporation (SIPC). While about
         maintain fair, orderly, and efficient markets;   2,000 smaller investment advisers transitioned to
         and facilitate capital formation. The SEC        state regulation under the Dodd-Frank Wall Street
strives to promote a market environment that is           Reform and Consumer Protection Act (Dodd-Frank
worthy of the public’s trust and characterized by         Act), the SEC is gained responsibility for directly
transparency and integrity. The SEC’s core values         overseeing approximately 1,500 larger private fund
consist of integrity, accountability, effectiveness,      advisers, including hedge funds.
teamwork, fairness, and commitment to excellence.
The SEC’s goals are to foster and enforce compli-         In order to accomplish its mission most effectively
ance with the federal securities laws; establish an       and efficiently, the SEC is organized into 5 main
effective regulatory environment; facilitate access to    divisions (Corporation Finance; Enforcement;
the information investors need to make informed           Investment Management; Trading and Markets; and
investment decisions; and enhance the Commis-             Risk, Strategy, and Financial Innovation) and 20
sion’s performance through effective alignment and        functional offices. The Commission’s headquarters
management of human resources, information, and           is in Washington, D.C., and there are 11 regional
financial capital.                                        offices located throughout the country. As of Sep-
                                                          tember 30, 2012, the SEC employed 3,792 full-time
SEC staff monitor and regulate a securities industry      equivalents (FTEs), consisting of 3,752 permanent
comprising more than 35,000 registrants, includ-          and 40 temporary FTEs.
ing approximately 9,500 public companies, 11,800
investment advisers, about 4,200 mutual funds, and
about 5,400 broker-dealers, as well as national secu-     OIG STAFFING
rities exchanges and self-regulatory organizations,       On May 30, 2012, the Commission named an
450 transfer agents, 16 national securities exchang-      interim inspector general to serve while a search for
es, 8 clearing agencies, and 9 credit rating agencies.    a permanent inspector general is completed.
Additionally, the agency has oversight responsibil-
ity for the Public Company Accounting Oversight           During the semiannual reporting period, the deputy
Board (PCAOB), the Financial Industry Regulatory          inspector general, the writer-editor, an auditor, and
Authority (FINRA), the Municipal Securities Rule-         a contract paralegal departed the OIG to pursue




                                                          APRIL 1, 2012–SEPTEMBER 3O, 2012                  |     5
other opportunities. The OIG bids farewell to these     in-charge positions and add a new junior auditor
dedicated staff members.                                position. The OIG plans to fill these important posi-
                                                        tions during the next reporting period. In addition,
Also during the reporting period, the OIG restruc-      the OIG appointed a current OIG staff attorney as
tured its Office of Audits to create two new auditor-   Congressional and Public Affairs Counsel.




6   |   OIG SEMIANNUAL REPORT TO CONGRESS
Congressional Testimony, Requests, and Briefings


D
         uring this semiannual reporting period, the     the SEC had taken steps to implement the report’s
         OIG continued to keep Congress fully and        recommendations.
         currently informed of the OIG’s investiga-
tions, audits, and other activities through testimony,   Subsequently, on July 24, 2012, the Interim Inspec-
written reports, meetings, and telephonic communi-       tor General received a request from the Commit-
cations.                                                 tee on Oversight and Government Reform for the
                                                         OIG to perform additional work with respect to
On April 17, 2012, the former Inspector General          the cost-benefit analyses associated with certain
testified before the TARP, Financial Services, and       SEC rulemakings. Specifically, the request noted
Bailouts of Public and Private Programs Subcom-          that on March 16, 2012, the SEC had circulated
mittee of the U.S. House of Representatives Com-         a memorandum entitled, “Current Guidance on
mittee on Oversight and Government Reform                Economic Analysis in SEC Rulemakings” (Current
concerning the cost-benefit analyses performed by        Guidance), and that SEC Chairman Mary Schapiro
the SEC in connection with rulemakings under the         had assured the Subcommittee on TARP, Financial
Dodd-Frank Act. The primary focus of the former          Services, and Bailouts of Public and Private Pro-
Inspector General’s testimony was a report the           grams that the Current Guidance would govern all
OIG had issued during the previous semiannual            agency rulemaking. The Committee on Oversight
reporting period concerning the OIG’s “Follow-up         and Government Reform requested that the OIG
Review of Cost-Benefit Analyses in Selected Dodd-        evaluate the implementation of the Current Guid-
Frank Act Rulemakings.”  This report, as well as         ance in newly-proposed and final Commission rules,
an earlier OIG report on the topic, was prepared in      as well as the degree to which the principles and
response to a request from several members of the        policies of the Current Guidance are incorporated
U.S. Senate Committee on Banking, Housing, and           into the economic analyses of rulemakings of the
Urban Affairs. In his testimony, the former Inspector    self-regulatory organizations (SRO) under the SEC’s
General summarized the findings and conclusions          jurisdiction. The Committee also welcomed the
reached during the OIG’s review. In addition, the        OIG’s recommendations for further improvements
former Inspector General described the six recom-        to the cost-benefit analyses associated with SEC and
mendations made in the report for improvements to        SRO rulemakings. On August 2, 2012, the Interim
the SEC’s practices relating to cost-benefit analyses.   Inspector General responded to the Committee’s
Finally, the former Inspector General noted that         request and stated that the OIG had commenced the




                                                         APRIL 1, 2012–SEPTEMBER 3O, 2012                |   7
process to retain a contractor to conduct a review of   the Chairman of the U.S. House of Representatives
the SEC’s implementation of the Current Guidance        Committee on Oversight and Government Reform,
and its incorporation into SRO rulemaking.              which requested responses to three questions relat-
                                                        ing to the specific methods used by the SEC OIG
The OIG also responded to several other Congres-        to communicate with Congress. In response to the
sional requests during the reporting period. For        Chairman’s questions, the Interim Inspector General
example, on July 11, 2012, the Interim Inspector        stated that he was not aware of any “seven-day let-
General responded to a June 27, 2012, request           ters” issued by the SEC OIG under Section 5(d) of
from U.S. Senators Richard G. Lugar and Benjamin        the Inspector General Act, which requires an Inspec-
L. Cardin. The Senators had requested that the          tor General to report particularly serious or flagrant
OIG evaluate the status of the SEC’s implemen-          problems to Congress through the agency head.
tation of the Cardin-Lugar Amendment, which             The Interim Inspector General further informed the
was included as Section 1504 of the Dodd-Frank          Chairman that he was not aware of any serious or
Act and required reporting of payments made to          flagrant problems at the SEC that were not reported
governments for the extraction of oil, natural gas,     to Congress. The Interim Inspector General also
and minerals by companies that must file disclo-        emphasized the importance he places on maintain-
sures with the SEC. The Interim Inspector General       ing an active dialogue with Congress and described
informed the Senators that the OIG had confirmed        in detail the various methods used by the SEC OIG
that the Commission was scheduled to vote on a          to communicate with Congress in a timely, com-
final rule implementing Section 1504 on August 22,      plete, and high-quality manner. Finally, the Interim
2012. Thereafter, the Commission adopted the rules      Inspector General described measures he had
mandated by Section 1504.                               undertaken since his May 30, 2012 appointment,
                                                        to develop a unified and coordinated approach to
In addition, on July 20, 2012, the Interim Inspec-      guide and foster the SEC OIG’s relationship with
tor General responded to a July 16, 2012, request       Congress.
from the Chairman of the Subcommittee on Energy
and Environment of the U.S. House of Representa-        In addition to providing responses to the requests
tives Committee on Science, Space, and Technology       discussed above, the Interim Inspector General
that the OIG conduct an inquiry into the SEC’s          briefed various Congressional committee and
communications with the Department of Energy            subcommittee staff. Shortly after his appointment,
(DOE) regarding a DOE grantee. In his response,         the Interim Inspector General met separately with
the Interim Inspector General apprised the Subcom-      staff of the U.S. Senate Committee on the Judiciary
mittee Chairman of pertinent communications of          and the U.S. House of Representatives Committee
which the OIG was aware.                                on Oversight and Government Reform to discuss
                                                        a number of issues relating to the SEC OIG and its
The Interim Inspector General also responded on         oversight work.
August 24, 2012, to an August 3, 2012, letter from




8   |   OIG SEMIANNUAL REPORT TO CONGRESS
The Inspector General’s Statement on the
SEC’s Management and Performance Challenges


T
         he Reports Consolidation Act of 2000           personal services contract. On March 29, 2012,
         requires the SEC OIG to identify and report    OIG issued a report of investigation into an allega-
         annually on the most serious management        tion that the SEC had entered into an improper
challenges the SEC faces. To identify management        personal services contract. The investigation found
challenges we routinely review past and ongoing         evidence that an SEC contract may have been
audit, investigation, and evaluation work to identify   improperly administered because some contract
material weaknesses, significant deficiencies, and      personnel were subject to the continuous supervi-
vulnerabilities. This statement has been compiled       sion and control of SEC employees.
based on the work we have completed over the past
year, our general knowledge of the SEC’s opera-         According to the Federal Acquisition Regulation
tions, and feedback we received from the agency         (FAR), a personal services contract is character-
and the Government Accountability Office’s (GAO)        ized by the employer-employee relationship that
financial statement auditors.                           is created between the Government and the con-
                                                        tractor’s personnel. The Government is normally
                                                        required to obtain its employees by direct hire under
PROCUREMENT AND CONTRACTING                             competitive appointment or other procedures that
Since fiscal year 2008, OIG has identified the SEC’s    are required by the civil service laws. Obtaining
procurement and contracting function as a man-          personal services by contract, rather than by direct
agement challenge. While we are pleased at the          hire, circumvents these laws, absent specific Con-
continued progress and improvements the Office          gressional authorization.1
of Acquisitions (OA) has made in this area, over-
all, procurement and contracting continues to be a      OIG’s investigation recommended the agency
management challenge.                                   obtain an opinion from the Comptroller General on
                                                        whether the SEC was employing unauthorized per-
Specifically, work conducted by OIG’s Office of         sonal services. However, we subsequently advised
Investigations during the fiscal year, revealed there   SEC management that issuing a new regulation on
were deficiencies in the SEC’s administration of a      personal services contracts would be a sufficient

1   FAR § 37.104(a).




                                                        APRIL 1, 2012–SEPTEMBER 3O, 2012                 |   9
response to the investigation’s findings and a Comp-      management challenge for the SEC due to repeat
troller General’s opinion would not be needed.            findings for the current and past fiscal years that
While OA continues to make improvements in the            have not been addressed. When taken as a whole,
procurement and contracting area, further progress        the combination of these deficiencies result in a
is needed to ensure the SEC complies fully with           management challenge that must be addressed to
the FAR provisions relating to personal services          ensure the SEC’s full compliance with all FISMA
contracts.                                                requirements and the SEC’s information technology
                                                          (IT) framework is secured.    

INFORMATION SECURITY                                      Specifically, in the 2011 Annual FISMA Executive
Though the Office of Information Technology (OIT)         Summary Report, Report No. 501, issued February
made significant improvements during the fiscal           2, 2012, we concluded SEC risk management policy
year, information security continues to be a man-         did not adhere to the requirements for a compre-
agement challenge for the SEC. This was further           hensive governance structure and organization-wide
confirmed in the vulnerabilities that were identified     risk management strategy, and OIT’s risk manage-
in the system and network logs in the OIG’s Assess-       ment did not address risk from a mission and busi-
ment of SEC Systems and Network Logs, Report              ness perspective as described in National Institute
No. 500, issued March 16, 2012, and based on new          of Standards and Technology (NIST) SP 800-37,
weaknesses covering information security controls         Rev 1, Guide for Applying the Risk Management
that GAO identified in its fiscal year 2011 audit of      Framework to Federal Information Systems: A
the SEC’s financial statements report.                    Security Life Cycle Approach, February 2010.

In Assessment of SEC Systems and Network Logs,            Secondly, the SEC has not fully implemented base-
Report No. 500, the OIG determined OIT should             line configurations and configuration compliance
identify capacity requirements for all servers, ensure    scanning within the information system environ-
sufficient capacity is available for the storage of       ment. Baseline configurations have not been defined
audit records, configure auditing to reduce the likeli-   and configuration scanning is not conducted for
hood that capacity will be exceeded, and implement        networking devices. Without baseline or compli-
a mechanism to alert and notify appropriate offices       ance scanning for networking devices, settings
and divisions when log storage capacity is reached.       could be altered without the network administra-
                                                          tor’s knowledge. As a result, improperly configured
The report also found many SEC servers did not log        devices could present an increased security risk to
auditable events because their logging capacity had       the SEC’s systems.
been exceeded. Further, the report found that there
was no mechanism available to alert OIT’s Servers         In the 2011 Annual FISMA Executive Summary
and Storage Branch or OIT’s Security Branch when          Report, OIT concurred with the OIG’s recommen-
servers reached their capacity and stopped perform-       dation that the office complete its implementation
ing logging functions. Most notably, the report           of the technical solution for linking multi-factor
revealed that decommissioned servers were still           authentication to Personal Identity Verification
actively connected to the SEC’s Enterprise networks       (PIV) cards for system authentication and require
and were still accessible.                                use of the PIV cards as a second authentication fac-
                                                          tor, but it still has not implemented a technical solu-
Compliance with the Federal Information Secu-             tion to link the multi-factor authentication solutions
rity Management Act (FISMA) continues to be a             to SEC’s PIV card. Thus, the SEC is not in compli-




10   |   OIG SEMIANNUAL REPORT TO CONGRESS
ance with the requirements established in Homeland      CONTINUITY OF OPERATIONS PROGRAM
Security Presidential Directive 12, which opens the     Federal agencies are required to have a viable
agency up to a higher risk for fraud, tampering,        Continuity of Operations Program (COOP) in place
counterfeiting, etc.                                    to ensure the agency can continue to perform its
                                                        critical mission functions during an emergency. An
Finally, the SEC’s tailored set of baseline security    agency’s COOP plan focuses on restoring the orga-
controls are not explicitly defined in the System       nization’s mission essential functions at an alternate
Security Plan or other security documents for each      site and performing these functions for up to 30
system. Though OIT identifies a generic set of          days before returning to normal operations.
baseline security controls, the selection process is
based on the security categorization of the system      The OIG has identified SEC’s COOP as a manage-
and is not in accordance with NIST SP 800-37,           ment challenge. In the Review of the SEC’s Continu-
Rev 1. Additionally, OIT has not developed formal       ity of Operations Program, Report No. 502, issued
procedures that provide instructions for tailoring      on April 23, 2012, we identified areas needing
baseline security controls in compliance with NIST      improvement to ensure a comprehensive, cohesive,
SP 800-53, Rev 3, Recommended Security Controls         and up-to-date COOP that complies with federal
for Federal Information Systems and Organiza-           guidance. Many of the report’s recommendations
tions, August 2009. As a result of not implementing     involve OIT’s interaction with program offices and
formal tailored control sets, a generic control set     divisions agency-wide, to include the SEC’s regional
based only on security categorization could result      offices. These improvements were broadly separated
in understating or overstating the security require-    into two groups:
ments for each system and critical controls may not
be identified for systems if the tailoring process is   (1)	 procedural problems, and
not followed.                                           (2)	 IT equipment-related problems.

The areas discussed above remain challenges that        With regard to procedural improvements, the report
were identified in the past and have not yet been       found that supplemental plans for divisions, offices,
completely mitigated. The OIG will continue its         and regional offices are not being updated or prop-
oversight of IT management and monitor progress         erly maintained. In addition, many of the plans that
in these areas.                                         are in place contain unrealistic estimates of required
                                                        recovery time. Further, the report found that several
GAO reported in its fiscal year 2011 audit of the       regional offices’ Disaster Recovery Plans (DRP) had
SEC’s financial statements that the SEC made prog-      not been tested annually, and two regional offices
ress in strengthening its internal controls over its    did not include recovery phase testing in their most
financial information systems. However, despite this    recent disaster recovery test plans. Finally, we found
progress, they identified new weaknesses in infor-      that while some OIT personnel regularly participate
mation security controls regarding                      in DRP exercises, many essential personnel do not
                                                        participate in these exercises and have not received
•	   incomplete implementation of SEC’s informa-        appropriate role-based training for their part in the
     tion security program, and                         DRP and COOP activities.
•	   inadequate review of service auditors’ reports
     that jeopardized the confidentiality and integ-    Regarding IT equipment issues, our review identi-
     rity of SEC’s financial information.               fied instances where information feeds and power




                                                        APRIL 1, 2012–SEPTEMBER 3O, 2012                 |   11
distribution throughout the SEC’s network could                   cant deficiencies GAO identified in SEC’s internal
fail if a disruption were to occur. In addition, equip-           controls and the inherent risks that are associated
ment at the SEC’s devolution sites is out-of-date and             with transitioning the SEC’s core financial system
cannot be used with SEC’s network, due to unre-                   to a FSSP, financial management remains a manage-
solved security issues. We also found that remote                 ment challenge.
access capabilities would be enhanced if remote
access to desktop applications could function when                GAO found that the SEC continued to carry out
the user’s desktop computer is turned off or does                 its financial reporting during fiscal year 2011
not have power.                                                   using spreadsheets, databases, and data processing
                                                                  practices that relied on significant manual analysis,
Among the report’s 38 recommendations were that                   reconciliation, and work-arounds that were used to
DRPs are tested thoroughly each year, and the SEC                 assist in calculating amounts in the general ledger
should revise its system recovery time objectives to              transaction postings. Such manual processes are
include specific and realistic timeframes. Further,               resource intensive and prone to error and, coupled
the report recommended that the SEC should take                   with the significant amount of data involved, there
procedural steps such as categorizing essential                   is an increased risk of materially misstated account
personnel and ensure alternate worksites are readily              balances in the general ledger.
accessible.
                                                                  GAO reported that consistent with prior audits they
                                                                  continued to find deficiencies in SEC’s recording
FINANCIAL MANAGEMENT                                              of new obligations and monitoring of open obliga-
The GAO’s fiscal year 2011 audit of the SEC’s                     tions. These deficiencies resulted in misstatements
financial statements2 found that they were fairly                 in SEC’s accounting records which could affect the
presented in all material respects, in conformity                 reliability of information that is reported in its State-
with U.S. generally accepted accounting principles;               ment of Budgetary Resources.
and though internal controls could be improved,
the SEC maintained in all material respects, effective            GAO also noted that the SEC made improvements
internal controls over financial reporting. Though                in verifying current filing fee transactions more
GAO found no reportable noncompliance with the                    timely. However, they found continuing deficiencies
laws and regulations they tested, they identified four            in the SEC’s controls over registrant deposits and
significant deficiencies in SEC’s internal controls.              filing fees that collectively represented a significant
The significant deficiencies identified during fiscal             deficiency for fiscal year 2011. Specifically, the SEC
year 2011 included deficiencies in controls over                  has not effectively addressed previously reported
                                                                  deficiencies in its process to enable timely recogni-
•	     information systems,                                       tion of filing fee revenue. Because of this continuing
•	     financial reporting and accounting processes,              control deficiency, the SEC is not always recognizing
•	     budgetary resources, and                                   filing fee revenue in the correct accounting period
•	     registrant deposits and filing fees.                       and, therefore, its registrant deposit liability could
                                                                  be misstated and not be corrected in a timely man-
During the current fiscal year the SEC transitioned               ner. Contributing to the SEC’s deficiencies in this
its core financial system to the Department of Trans-             area is that it has yet to finalize and implement a
portation’s Enterprise Service Center, Federal Shared             formal process for ongoing monitoring of filing fee
Service Provider (FSSP). Based on the four signifi-               transactions.

2   Includes SEC’s general purpose and Investor Protection Fund (IPF) financial statements.



12     |   OIG SEMIANNUAL REPORT TO CONGRESS
Advice and Assistance Provided to the Agency


D
         uring this semiannual reporting period, the   tain initiatives to decrease the number of hard copy
         OIG provided advice and assistance to SEC     CCH purchases, additional steps could be taken to
         management on issues that were brought        reduce the costs associated with hard copy CCHs.
to the OIG’s attention through various means.          The OIG forwarded the suggestion to the Branch of
This advice and assistance was conveyed through        Library Services and suggested that it consider pro-
written communications, as well as in meetings         viding additional information to SEC staff regarding
and conversations with agency officials. The advice    the availability of this resource online. The OIG
and assistance provided included suggestions for       further suggested that the Branch of Library Services
improvement in agency programs and operations          provide information regarding the price discrepancy
that were received through the OIG SEC Employee        between the hard copy and online CCH versions
Suggestion Program, which was established pursu-       and offer training on the online resource to encour-
ant to Section 966 of the Dodd-Frank Wall Street       age more employees to utilize CCH IntelliConnect.
Reform and Consumer Protection Act.                    It is expected that these measures will result in a
                                                       reduction in the number of hard copy CCHs utilized
Specifically, the OIG received a suggestion through    and, therefore, cost savings for the SEC.
the OIG SEC Employee Suggestion Program regard-
ing subscription costs associated with hard copy       Another suggestion received through the OIG SEC
sets of Commerce Clearing House (CCH) securities       Employee Suggestion Program related to employ-
law books and corresponding regular hard copy          ees’ ability to book conference rooms online. The
updates. Staff from the SEC’s Branch of Library        OIG was informed that in certain regional offices,
Services informed the OIG that CCH is available        conference rooms are booked manually and require
online through CCH IntelliConnect at no additional     assistance from support staff. The OIG spoke with
cost to the agency, but that many employees still      staff from the SEC’s OIT and learned that, while all
receive hard copy sets and the corresponding paper     SEC offices currently have the capability to book
updates. According to the Branch of Library Servic-    conference rooms electronically, online scheduling
es, the Commission currently spends over $300,000      of conference rooms is only available upon specific
per year for hard copy subscriptions. After review-    request from the OIT service desk or local office
ing and analyzing the suggestion received, the OIG     information technology staff. At the time the OIG
learned that, while the Commission has taken cer-      received the suggestion, the Philadelphia, New




                                                       APRIL 1, 2012–SEPTEMBER 3O, 2012               |   13
York, Salt Lake, Chicago, and Denver Regional            Finally, the Counsel to the Inspector General
Offices did not appear to use online conference          worked closely with the SEC’s Office of Equal
room scheduling. After reviewing and analyz-             Employment Opportunity (EEO) to develop and
ing the suggestion received, the OIG forwarded           offer training to all SEC staff pursuant to the
it to OIT for consideration. The OIG suggested           Notification and Federal Employee Antidiscrima-
that OIT provide additional information regard-          tion and Retaliation Act of 2002 (No FEAR Act).
ing the online scheduling feature throughout the         This Act mandates that federal agencies provide
agency and also consider reminding employees of          training to its employees at least every two years
the benefits of online scheduling. Subsequently, the     regarding their rights, remedies, and responsibili-
New York Regional Office began implementing the          ties under antidiscrimination EEO laws and the
online scheduling function. It is expected that the      whistleblower protection laws. The Counsel to the
remaining regional offices will also begin to use this   Inspector General provided assistance to the EEO
feature, which will result in a more streamlined,        Office in developing the portion of online No FEAR
efficient approach to scheduling conference rooms,       Act training related to the Whistleblower Protection
thereby improving employee efficiency.                   Act, and this online training was made available to
                                                         SEC employees beginning in July 2012. In addi-
Also during the reporting period, the Office of          tion, the Counsel to the Inspector General provided
Audits provided the agency with written com-             instruction concerning the antiretaliation provisions
ments it should consider before finalizing draft         of the Whistleblower Protection Act and the Inspec-
SEC Operating Procedure 10-24, Management and            tor General Act during two live training sessions
Administration of Service Contracts. In addition,        offered to SEC employees in September 2012.
the Office of Audits provided the agency with minor
comments and edits it should consider before final-
izing revised SEC Regulation 30-2, Audit Follow-up
and Resolution.




14   |   OIG SEMIANNUAL REPORT TO CONGRESS
Coordination with Other Offices of
Inspector General


D
         uring this semiannual reporting period, the    chaired by the Inspector General of the Department
         SEC OIG coordinated its activities with        of Treasury and is also comprised of the Inspectors
         those of other OIGs, as required by Sec-       General of the Board of Governors of the Federal
tion 4(a)(4) of the Inspector General Act of 1978,      Reserve System, the Commodity Futures Trading
as amended. Specifically, the SEC Interim Inspec-       Commission, the Department of Housing and Urban
tor General attended meetings of the Council of         Development, the Federal Deposit Insurance Cor-
the Inspectors General on Integrity and Efficiency      poration, the Federal Housing Finance Agency, the
(CIGIE) and serves as the Chairman of the CIGIE         National Credit Union Administration, and the SEC
Audit Committee. The Counsel to the Inspector           and the Special Inspector General for the Troubled
General participated in the activities of the Council   Asset Relief Program. Under the Dodd-Frank Act,
of Counsels to the Inspectors General, an informal      the CIGFO is required to meet at least quarterly to
organization of OIG attorneys throughout the            facilitate the sharing of information with a focus on
federal government who meet monthly and coor-           the concerns that may apply to the broader finan-
dinate and share information. The SEC OIG also          cial sector and ways to improve financial oversight.
responded to requests for information from CIGIE        The CIGFO is also required to submit an annual
during the reporting period that related to cyber       report to the Financial Stability Oversight Council
and information technology security related reviews     and the Congress, which must include a section
and subpoena disclosures. Further, the SEC OIG          that highlights the concerns and recommendations
forwarded matters discovered during two separate        of each CIGFO inspector general and a summary
Office investigations to other OIGs for potential       of the general CIGFO observations. The CIGFO’s
investigation.                                          2012 Annual Report was issued in July 2012 and
                                                        included a section discussing the SEC OIG’s mission,
In addition, the SEC Acting and Interim Inspectors      recent oversight work, and other planned oversight
General participated in the meetings and activities     work. The CIGFO 2012 Annual Report is available
of the Council of Inspectors General on Financial       at http://www.treasury.gov/about/organizational-
Oversight (CIGFO), which was created by Sec-            structure/ig/Documents/CIGFO%20Document/508_
tion 989E of the Dodd-Frank Act. The CIGFO is           CIGFO%20Annual%20Report.pdf.




                                                        APRIL 1, 2012–SEPTEMBER 3O, 2012               |   15
In addition to working on the CIGFO Annual              nal controls over sensitive and proprietary (nonpub-
Report, the SEC OIG participated in a CIGFO             lic) information that was collected and exchanged
working group that was established in December          with FSOC. The findings from each respective OIG
2011. The working group included staff from seven       were consolidated into the joint report entitled,
CIGFO members’ offices. The working group con-          Audit of the Financial Stability Oversight Council’s
ducted a joint audit of the Financial Stability Over-   Controls over Non-public Information, which was
sight Council’s (FSOC) controls and protocols to        issued on June 22, 2012 to the FSOC Chairman.
determine whether nonpublic information, delibera-      The report is available at http://www.treasury.
tions, and decisions are properly safeguarded from      gov/about/organizational-structure/ig/Documents/
unauthorized disclosure. FSOC, which was created        CIGFO%20Document/Audit%20of%20the%20
by Section 111 of the Dodd-Frank Act, is charged        Financial%20Stability%20Oversight%20Coun-
with identifying threats to the financial stability     cil’s%20Controls%20over%20Non-public%20
of the United States, promoting market discipline,      Information.pdf.
and responding to emerging risks that could impact
the stability of the nation’s financial system. FSOC    While the report did not make any recommenda-
consists of 10 voting members and 5 nonvoting           tions, it identified differences in how FSOC and its
members and brings together the expertise of federal    member agencies mark nonpublic information. In
financial regulators, state regulators, and an insur-   addition, the report identified control differences in
ance expert appointed by the President with Senate      how the various agencies handle nonpublic informa-
confirmation. The Chairman of the SEC is among          tion with respect to oral communication, supple-
the voting FSOC members.                                mental prohibition on financial interest, contractor
                                                        confidentiality and nondisclosure, encryption, and
As part of the working group, the SEC OIG con-          protocol for tracking information exchange.
ducted an audit of the SEC’s management and inter-




16   |   OIG SEMIANNUAL REPORT TO CONGRESS
Audits and Evaluations
OVERVIEW                                                 Audits



T
         he OIG is required by the Inspector General     Audits examine operations and financial trans-
         Act of 1978, as amended, to conduct audits      actions to ensure proper management practices
         and evaluations of agency programs, opera-      are being followed and resources are adequately
tions, and activities. The Office of Audits focuses      protected in accordance with governing laws and
its efforts on conducting independent audits and         regulations. Audits are systematic, independent, and
evaluations of the SEC’s programs, operations and        documented processes for obtaining evidence. In
functions. The Office of Audits also hires indepen-      general, audits are conducted when firm criteria or
dent contractors and subject matter experts to con-      data exist, sample data is measurable, and testing
duct work on its behalf. Specifically, the Office of     internal controls is a major objective. Auditors col-
Audits conducts audits and evaluations to determine      lect, analyze, and verify data by gathering documen-
whether                                                  tation, conducting interviews, and through physical
                                                         inspections. The Office of Audits conducts audits in
•	   there is compliance with governing laws,            accordance with the generally accepted government
     regulations, and policies;                          auditing standards, as set forth in the Government
•	   resources are safeguarded and appropriately         Auditing Standards, issued by the Comptroller Gen-
     managed;                                            eral of the United States, OIG policy, and guidance
•	   funds are expended properly;                        issued by the CIGIE.
•	   desired program results are achieved; and
•	   information provided by the agency to the           Evaluations
     public and others is reliable.                      The Office of Audits conducts evaluations of SEC
                                                         programs and activities. Evaluations consist of proj-
Each year, the Office of Audits prepares an annual       ects that often cover broad areas and are typically
audit plan. The plan includes work that is selected      designed to produce timely and useful information
for audit or evaluation based on risk and materiality,   associated with current or anticipated problems.
known or perceived vulnerabilities and inefficien-
cies, resource availability, and complaints received     Evaluations are generally conducted when a
from Congress, internal SEC staff, the GAO, and the      project’s objectives are based on specialty or highly
public.                                                  technical areas, criteria or data is not firm, or the




                                                         APRIL 1, 2012–SEPTEMBER 3O, 2012                 |   17
information must be reported in a short period of         ery events resulting from human/natural disasters,
time. Evaluations are conducted in accordance with        national emergencies, or technological events which
OIG policy and governing CIGIE guidance.                  could impact the Commission’s ability to continue
                                                          mission-critical and essential functions. The sub-
Audit Follow-Up and Resolution                            objectives for the review were to:
During this semiannual reporting period, SEC
divisions and offices provided the OIG with               •	   evaluate the SEC’s pandemic plan to ensure it
documentation to support their implementation of               was formal, documented, well-communicated,
recommendations that were identified in reports we             had been tested at regular intervals, and met the
issued to management. Specifically, the OIG closed             objectives of the National Strategy for Pandem-
68 recommendations related to 14 Office of Audits              ic Influenza: Implementation;
reports during this semiannual reporting period.          •	   assess the Commission’s implementation and
                                                               testing of its pandemic plan;
                                                          •	   determine the Commission’s plans for protect-
AUDITS AND EVALUATIONS CONDUCTED                               ing its employees and contractors during a
                                                               pandemic occurrence; and
Review of the SEC’s Continuity of Operations              •	   evaluate the Commission’s plans for sustaining
Program (Report No. 502)                                       essential functions during high rates of
                                                               employee absenteeism.
                B ackground
A continuity of operations program (COOP), includ-                            R esults
ing a business continuity plan (BCP) and disaster         As detailed in the report, TWM found that while the
recovery plan (DRP), is essential to an organization      SEC did have a COOP function and plan (including
maintaining its critical operations when unforeseen       relocation sites and testing) in place, the program
disruptions or interruptions occur that may affect        needed to be improved. In particular, the SEC’s
the organization’s normal operations. All federal         COOP policies, procedures, and documents were:
agencies are required to have viable programs and         (1) outdated or incomplete, (2) not comprehensive,
plans in place to ensure they are able to continue to     and (3) not being followed in some respects.
perform critical functions during an emergency. An
agency’s COOP plan focuses on restoring the orga-         TWM also found SEC recovery time objectives were
nization’s mission-essential functions at an alternate    inconsistent with the Federal Information Security
site and performing those functions for up to 30          Management Act’s (FISMA) system categoriza-
days before returning to normal operations.               tion for availability and system functionality. The
                                                          review also identified deficiencies with the DRPs for
In November 2011, the SEC OIG contracted the              individual systems, and found that the SEC did not
professional services of TWM Associates, Inc.             prepare BCPs or Information System Contingency
(TWM) to conduct a review of the SEC’s COOP.              Plans for its information systems. Additionally,
TWM’s primary objectives were to determine if the         the review identified instances in which informa-
SEC (1) had a viable COOP, BCP, and DRP that suf-         tion feeds and power distribution could fail if a
ficiently supported its operations at its headquarters,   disruption were to occur. Further, TWM found that
operations center, and 11 regional offices; and (2)       current data restoration processes were insufficient
was adequately prepared to perform essential func-        and improvements were needed in the processes for
tions during business continuity or disaster recov-       recovering data.




18   |   OIG SEMIANNUAL REPORT TO CONGRESS
TWM also found that remote access capabilities          In addition, the OIG recommended OIT determine
needed to be enhanced to allow remote access            which aspects of DRP and BCP testing should be
to desktop applications. The review found that          conducted annually and ensure this testing includes
several DRPs had not been tested annually, regional     the recovery phase and reconstitution phase. The
offices have not tested their alternate site restora-   OIG also recommended OFRMS revise the SEC’s
tion capability, and the pandemic plan has not been     system recovery time objectives to specify more real-
tested since 2007. In addition, the review found that   istic timeframes. Further, the OIG recommended the
alternate work locations for eight regional offices     SEC take appropriate procedural steps to categorize
have not been specified in COOP supplements or          essential personnel according to necessary functions
DRPs and the alternate work locations may not be        and ensure alternate worksites are readily accessible.
available during an event.
                                                        OFRMS and OIT concurred with all recommen-
TWM further found the SEC’s plans of action and         dations in the report that were addressed to their
milestones did not include certain issues found or      respective offices. The offices provided OIG with
recommendations for improvement made dur-               corrective action plans that were fully responsive
ing COOP or DRP testing. The review also found          to each recommendation. However, recommenda-
that while the SEC conducts COOP and disaster           tions remain open until documentation is provided
recovery exercises, the testing included a high con-    that demonstrates the recommendations were
centration of personnel at headquarters and many        implemented. The report is available on the OIG’s
essential personnel were not included. Lastly, the      website at http://www.sec-oig.gov/Reports/AuditsIn-
review identified that the SEC did not have current     spections/2012/502.pdf.
memoranda of agreement, memoranda of under-
standing, or service level agreements for alternate
worksites. TWM found these documents were               SEC’s Records Management Practices
either outdated or not included in the Commis-          (Report No. 505)
sion’s COOP or DRP.
                                                                       B ackground
          R ecommendations                              The Office of Records Management Services
The OIG issued its report on April 23, 2012, and        (ORMS) is responsible for coordinating, oversee-
made 38 recommendations that were designed to           ing, and implementing the SEC’s records manage-
strengthen the SEC’s COOP.                              ment program at its headquarters, operations
                                                        center, and 11 regional office locations. ORMS
The OIG recommended, among other things, the            and the Office of Security Services (OSS) are direct
Office of Freedom of Information Act, Records           reporting units to the Office of Support Operations
Management, and Security (OFRMS) and OIT, in            (OSO). OSS has oversight of SEC’s vital records
conjunction with SEC divisions and offices, update,     program, while ORMS oversees the SEC’s overall
revise, and finalize all COOP documents, includ-        records management program through points-of-
ing COOP plans and supplements, DRPs, BCPs,             contact (POC) in most divisions and offices. The
business impact analyses, and pandemic plans            POCs provide oversight of their individual records
and supplements. The OIG further recommended            management program and practices. ORMS’
OFRMS and OIT ensure these documents are                responsibilities include providing reference services
complete, include necessary elements, and properly      for Commission staff, other federal, state, and local
define the SEC’s essential functions.                   entities and members of the public that are essential




                                                        APRIL 1, 2012–SEPTEMBER 3O, 2012                |   19
for the SEC to achieve its mission. Additionally,        Our review of a sample number of records requests
ORMS coordinates with the SEC’s Office of Inves-         found that some ORMS staff did not follow the
tor Education and Advocacy and Public Reference          office’s standard operating policy in processing
Room concerning records reference requests from          requests and several requests were not completed
the public. Further, ORMS assists the Office of          within ORMS’ seven business days goal for non-
Freedom of Information Act (FOIA) Services, in           urgent records requests.
responding to requests for nonpublic records under
FOIA.                                                    The audit also identified offices that did not have
                                                         records retention schedules and other offices whose
The objectives of our audit were to examine              records retention schedules were outdated. Addi-
whether ORMS:                                            tionally, we found ORMS had not met with all SEC
                                                         offices to determine if they had records.
•	   established a viable records management
     program that ensures permanent SEC records          The OIG determined that many divisions and
     are appropriately maintained and preserved in       offices did not have proper records management
     accordance with applicable federal statutes and     procedures to ensure that active records are prop-
     regulations; and                                    erly and economically maintained and used on a
•	   adhered to applicable federal statutes and          regular basis. Further, the audit found that inactive
     regulations regarding the retention, disposal,      records were not regularly disposed.
     transfer, and recovery of SEC records.
                                                         Several POCs informed the OIG they did not know
                    R esults                             when their records should be disposed of and did
The audit found that the SEC did not have an             not do so annually. Additionally, the OIG found
active staff assistance program and ORMS or its          ORMS had not reviewed the contents of 256 boxes
predecessors did not conduct periodic agency-wide        that its contractor identified in a November 2010
staff assistance visits. Although ORMS provided          report that was issued to ORMS. These boxes con-
assistance to offices and divisions to identify their    tained records that must be reviewed and scheduled
records and had scheduled records for disposition,       for disposition. ORMS informed the OIG that, as
it had not conducted staff assistance visits of all      of September 2012, it had reviewed 98 of the 256
36 SEC divisions and offices. Therefore, confusion       boxes and coordinated with the Federal Records
existed among POCs regarding their records man-          Center (FRC) to review the remaining boxes.
agement responsibilities.
                                                         The audit also found that ORMS had not per-
In addition, the audit revealed that although ORMS       formed a timely review of SEC records that were
readily answered agency staff questions about            eligible for destruction. As a result, there was an
records matters, provided basic records manage-          approximate 10-year backlog of records that were
ment training during the SEC’s new employee orien-       eligible for destruction but had not been destroyed.
tation, and provided training to staff in the regional   Although ORMS maintains hard copies of disposal
offices, ORMS did not provide records management         forms the FRC provided for records review, approv-
training to staff agency-wide. The OIG determined        al, and destruction, the office did not maintain a
that this has caused confusion among employees.          list of Commission records the FRC identified as
                                                         eligible for destruction.




20   |   OIG SEMIANNUAL REPORT TO CONGRESS
Further, we determined that some offices and divi-      the SEC’s records management programs in accor-
sions did not have records management POCs. We          dance with SECR 7-1, Securities and Exchange
also found that SEC’s records management direc-         Commission’s Records Management Program. In
tives did not require offices or divisions to have      addition, OIG recommended ORMS develop a
records management POCs. As a result, some SEC          records management training program and offer
employees did not understand their records manage-      training sessions on records management to all SEC
ment responsibilities. Also, the federal regulations    employees. We also recommended ORMS develop
and SEC policies covering records management            robust internal controls that provide oversight of
were not being followed properly.                       its records requests processes. Further, we recom-
                                                        mended that ORMS work with offices and divisions
At the time of our audit, OSS had oversight of          agency-wide to ensure they have current manage-
SEC’s vital records program and was working             ment procedures that enable them to properly
with ORMS to evaluate the program, but had not          manage their records in accordance with applicable
defined the SEC’s vital records and did not review or   federal regulations and the SEC’s administrative
update the Commission’s vital records at least annu-    regulations.
ally. As a result, the SEC’s listing of vital records
was incomplete and outdated. Further, the SEC had       Additionally, the OIG recommended ORMS
not definitively established how it will protect and    develop a definitive action and milestones plan to
retrieve vital records in an emergency. Due to chang-   review the records backlog maintained at the FRC
es in responsibilities for vital records management,    and determine how the records will be treated. We
confusion existed regarding the SEC’s compliance        also recommended ORMS develop an action plan
with the National Archives and Records Adminis-         to address the 10-year backlog of records the FRC
tration’s (NARA) guidance on vital records. Thus,       has identified as being eligible for destruction.
the SEC did not comply with certain vital records
management regulations.                                 Further, the OIG recommended ORMS require
                                                        all divisions and offices to designate a POC for
Lastly, our audit found the SEC’s records manage-       records management matters, and periodically
ment administrative regulations and vital records       verify the POC listing. We also recommended OSS,
handbook were outdated. The administrative regu-        in coordination with ORMS, develop a vital records
lations contained terminology, processes, and forms     program that includes processes and procedures,
that were no longer current, and the vital records      and establish and maintain the SEC’s vital records in
handbook included a form the SEC never used.            accordance with applicable federal regulations and
                                                        NARA’s guidance on vital records management.
          R ecommendations
On September 30, 2012, the OIG issued a final           We also recommended ORMS update its adminis-
report containing 12 recommendations that were          trative regulations covering records management
designed to ensure the SEC’s records are properly       and train SEC employees on the new regulations.
managed and to strengthen the SEC’s records man-        Lastly, we recommended OSS and ORMS coordi-
agement program.                                        nate review of the SEC’s Vital Records Handbook
                                                        and determine if it will be revised or rescinded.
Specifically, the OIG recommended ORMS periodi-
cally conduct agency-wide staff assistance visits of




                                                        APRIL 1, 2012–SEPTEMBER 3O, 2012               |   21
Management concurred with all of the report’s             abuse. The specific audit objectives were to assess
recommendations. Each recommendation will                 whether OIA:
remain open until documentation is provided to
OIG that demonstrates the recommendations                 •	   had viable policies, procedures, and controls for
were implemented. This report is available on                  its program activities;
OIG’s website at: http://www.sec-oig.gov/Reports/         •	   effectively tracked and processed requests for
AuditsInspections/2012/505a.pdf.                               technical assistance and enforcement assistance
                                                               in a timely manner;
                                                          •	   had developed a program that ensures SEC
The Office of International Affairs Internal                   employees’ international travel is appropriately
Operations and Travel Oversight                                processed through OIA;
(Report No. 508)                                          •	   adequately communicated the SEC’s interna-
                                                               tional travel process and related procedures to
               B ackground                                     employees; and
The mission of the Office of International Affairs        •	   appropriately conducted and reported its staff’s
(OIA) is to promote investor protection and cross-             international travel in accordance with appli-
border securities transactions by: (1) advancing               cable federal regulations and internal policies
international regulatory and enforcement coopera-              and procedures.
tion, (2) promoting the adoption of high regulatory
standards worldwide, and (3) formulating technical                             R esults
assistance programs to strengthen the regulatory          The OIG found OIA’s operating units had viable
infrastructure in global securities markets.              policies, procedures, and controls, and OIA effec-
                                                          tively tracked and processed technical and enforce-
OIA also serves as the focal point for the SEC staff’s    ment assistance requests. However, OIA had not
official international travel. OIA reviews staff’s pro-   documented its international travel coordination
posed foreign travel, as presented in the SEC’s For-      and review procedures. In addition, our testing of
eign Travel Memorandum (FTM) and supporting               FTMs, the primary review document for interna-
documents, which travelers provide to OIA. OIA            tional travel, found that:
then submits these documents to the Office of the
Chief Operating Officer (OCOO) for final review           •	   FTMs were not always submitted to OIA two
and approval. Further, OIA coordinates SEC staff’s             weeks prior to the start of travel, as is required
needed country clearances with the U.S. Department             by SEC policy;
of State and foreign governments, and determines          •	   Some FTMs did not have one or more required
if there are any visa requirements. In addition, OIA           supporting documents; and
provides input to the “International Travel” section      •	   Some FTMs were approved by the former
of the SEC’s intranet, which provides foreign travel           Executive Director on or after the traveler’s
guidance to SEC staff.                                         departure date, and the former Executive Direc-
                                                               tor did not approve a few FTMs.
The overall objective of the OIG’s audit was to
assess the effectiveness and efficiency of OIA’s          The audit also found that while OIA obtained
internal operations and identify areas for improve-       country clearances for SEC international travelers,
ment to reduce or eliminate fraud, waste, and             it maintained the documents in its file and did not
                                                          provide them to the travelers.




22   |   OIG SEMIANNUAL REPORT TO CONGRESS
Further, our review of supporting documentation         Additionally, we recommended OIA establish
for three separate international trips taken by SEC     procedures and provide training to its staff on the
in 2009 and 2010, did not sufficiently document         proper application of federal travel regulations and
the benefits to be derived from these trips. However,   SEC travel policies related to planning international
OIA management provided the OIG with additional         trips, preparing expense reports, and computing and
documentation to justify the benefits of these trips.   recording compensatory time for travel. We also
                                                        recommended OIA ensure its timekeeper records
Our review of a sample number of international          compensatory time for travel in the pay period the
expense reports found compliance with federal           hours are earned.
travel regulations and SEC travel policies needed
improvement. Specifically, we determined that 61        Finally, we recommended OIA and OCOO review
percent of expense reports in our sample were not       guidance on the SEC intranet related to interna-
submitted by travelers within five working days         tional travel processes and procedures and regularly
after the trips’ completion, as required. The audit     update this information.
also found compliance issues related to business
class travel, taxis, airport parking, hotel per diem,   OIA and OCOO concurred with the recommen-
meals and incidental expenses, and the record-          dations addressed to their respective offices. Each
ing of compensatory time for travel. Finally, we        recommendation will remain open until OIG is pro-
determined the “International Travel” section on        vided documentation that supports the recommen-
the SEC’s intranet had outdated information that        dations were implemented. The report is available
needed updating.                                        on the OIG’s website at http://www.sec-oig.gov/
                                                        Reports/AuditsInspections/2012/508.pdf.
          R ecommendations
Based on the results of the audit, the OIG issued
the final report on September 30, 2012. The report      PENDING AUDITS AND EVALUATIONS
contained 10 recommendations that were developed
to strengthen OIA’s internal operations and to assist   SEC’s Whistleblower Program
OIA and the OCOO in effectively executing their         During this reporting period, the OIG began a
international travel-related responsibilities.          statutorily mandated study to evaluate the SEC’s
                                                        whistleblower program, which was established
Specifically, the OIG recommended OIA develop           pursuant to the Dodd-Frank Act. The audit will
and implement written procedures for its travel         determine (1) if the final rules implementing the
coordination and review activities. In addition, we     SEC’s whistleblower program clearly defined
recommended OIA strengthen its travel adminis-          the program and make it user friendly; (2) if the
trative activities. In this regard, OIA and OCOO        program is promoted on the SEC’s website and has
should periodically inform SEC staff of the require-    been widely publicized; (3) whether the Commis-
ment to prepare FTMs at least two weeks before the      sion is prompt in responding to whistleblowers and
travel date and to provide supporting documents         other interested parties; (4) whether reward levels
with the FTM to OIA. Further, we recommended            are adequate to entice whistleblowers to provide
the FTM be revised to include a justification for       information or too high thereby encouraging ille-
approved travel and copies of approved country          gitimate whistleblower claims; and (5) how current
clearances be provided to international travelers.      policies, procedures, and provisions of the Dodd-




                                                        APRIL 1, 2012–SEPTEMBER 3O, 2012               |   23
Frank Act impact the effectiveness of the SEC’s         to determine (1) if the SEC’s systems are appropri-
whistleblower program.                                  ately certified and accredited in accordance with
                                                        governing guidelines and industry best practices;
Fieldwork is currently ongoing, and we expect to        (2) if the C&A process for critical applications is
issue a final report in January 2013.                   effective in identifying and mitigating risks in a
                                                        timely manner; and (3) the adequacy of OIT’s inter-
                                                        nal controls and compliance with internal informa-
Support, Expert, and Consulting Services                tion security policies and procedures and industry
Contracts at the SEC                                    best practices, standards, and guidelines.
We contracted with an independent public accoun-
tant to conduct an audit of the SEC’s contract for      In addition, the evaluation will determine whether
support, expert, and consulting services. The pri-      OIT’s C&A process is consistent with the National
mary objective of the audit is to determine whether     Institute of Standards and Technology’s (NIST) six-
the Office of Acquisitions (OA) awarded contracts       step risk management framework guidance, Guide
for services that were inherently governmental or       for Applying the Risk Management Framework to
has contracts that are being administered as per-       Federal Information Systems (NIST 800-37, Rev
sonal services contracts, in violation of the Federal   1). Where appropriate, the evaluation will identify
Acquisition Regulation. Further, the audit will         areas that can be strengthened and best practices.
determine if OA has (1) internal controls and policy
to prevent contractors from performing inherently       The contractor will complete its work and issue a
governmental functions, (2) policy that prohibits       final report during the next semiannual reporting
services contracts from being administered as per-      period.
sonal services contracts; (3) monitoring guidance to
ensure the contract terms are carried out in com-
pliance with governing federal laws, regulations,       Hiring Practices for Senior Level
and SEC internal policy; and (4) internal controls      Positions at the SEC
to ensure the SEC is properly charged for services      The OIG has continued to receive complaints and
rendered under the terms of the contracts. Where        allegations regarding the SEC’s failure to follow
appropriate, the audit will identify best practices     established policies and procedures in connection
and possible cost savings.                              with hiring or promoting staff to senior-level posi-
                                                        tions. As a result, the OIG is conducting an audit of
The contractor will complete the audit and issue a      the SEC’s civil service hiring practices. During the
final report during the next semiannual reporting       reporting period, we extended the scope of the audit
period.                                                 and revised the objectives to better assess systemic
                                                        issues related to the SEC’s hiring and promotion
                                                        practices for senior level staff positions.
Evaluation of the SEC’s Systems Certification
and Accreditation Process                               The objectives of the audit are to examine whether
The OIG hired a contractor to perform an indepen-       OHR (1) adheres to applicable federal statutes and
dent review of the OIT’s certification and accredita-   regulations and has adequate policies and proce-
tion (C&A) process. The evaluation’s objectives are     dures covering senior level vacancies in the competi-




24   |   OIG SEMIANNUAL REPORT TO CONGRESS
tive service, excepted service, and for senior officers;   The SEC’s Controls Over Sensitive and
(2) ensures the SEC’s hiring and promotion practices       Proprietary Information Collected and
are carried out in a fair and consistent manner and        Exchanged With the Financial
in accordance with applicable federal statutes, regu-      Stability Oversight Council
lations and OHR policy requirements; (3) commu-            During the reporting period, as part of the CIGFO
nicates its hiring authority, decisions, and changes       working group, the Office of Audits worked on a
to the appropriate personnel; (4) ensures hiring and       joint audit with other CIGFO members’ staff to
promotion decisions are documented in accordance           examine the respective agencies’ management and
with applicable federal statutes and regulations;          internal controls over sensitive and proprietary
and (5) takes action in accordance with applicable         (nonpublic) information that was collected and
federal statutes and regulations and OHR policy            exchanged with the FSOC. CIGFO was established
pertaining to improper hirings or promotions.              to (1) facilitate information sharing among inspec-
                                                           tors general, (2) provide a forum for discussing
The audit’s fieldwork is nearing completion and            work as it relates to the broader financial sector, and
several tentative findings have been drafted. We           (3) evaluate the FSOC’s effectiveness and internal
expect to issue a final audit report by the end of         operations. A joint report entitled, Audit of the
next semiannual reporting period.                          Financial Stability Oversight Council’s Controls
                                                           over Non-public Information, was issued to the
                                                           FSOC Chairman on June 22, 2012. The report did
Filing Fee Refund Requests                                 not make any recommendations.
The OIG commenced an audit of the Office of
Financial Management’s (OFM) filing fee refund             As a follow-up to the joint audit, OIG conducted
request procedures during this reporting period. We        an audit of the SEC’s controls for handling and
contracted an independent public accounting firm           safeguarding nonpublic information from unau-
to conduct this audit. The objectives of the audit         thorized disclosure. The audit’s objective was to
are to assess (1) the adequacy of OFM’s written            examine the controls and protocols employed by
policies and standard operating procedures covering        the SEC to ensure that the nonpublic information,
its oversight of the filing fee program; (2) whether       including deliberations, and decisions, of the FSOC,
program staff are adequately trained and have the          the Department of Treasury’s Office of Financial
requisite skills needed carry out their duties; (3)        Research, and the FSOC member agencies is prop-
if the system being used to track filing fee refund        erly safeguarded from unauthorized disclosure.
requests is appropriate; and (4) whether backlogs
and dormant accounts are properly administered             During the semiannual reporting period, fieldwork
and managed.                                               was completed and a report was drafted. The final
                                                           audit report will be issued in the next semiannual
Where possible, the contractor will also identify          reporting period.
best practices and determine whether there are cost
saving opportunities. The contractor will complete
the audit and issue a final report during the next
reporting period.




                                                           APRIL 1, 2012–SEPTEMBER 3O, 2012                 |   25
Fiscal Year 2012 Federal Information Security          Additionally, the contractor will evaluate OIT’s:
Management Act (FISMA) Assessment                      data and boundary protections; continuous
The OIG hired a contractor with IT expertise to        monitoring asset, configurations, and vulnerability
perform an independent review of the SEC’s IT          management; enterprise security architecture; inci-
security programs and practices. The contractor will   dent management; network security protocols; and
determine the extent to which the SEC’s OIT meets      system inventory and quality of the inventory.
the Department of Homeland Security (DHS) and
NIST requirements covering configuration manage-       The contractor will further provide responses to
ment, contingency planning, continuous monitor-        DHS’s fiscal year 2012 questions related to the
ing management, contractor systems, identity and       SEC’s information security program. The contrac-
access management, incident response and report-       tor will also issue a final FISMA report prior to
ing, plan of action and milestones, remote access      the completion of the next semiannual reporting
management, risk management, security capital          period.
planning, and security training.




26   |   OIG SEMIANNUAL REPORT TO CONGRESS
Investigations
OVERVIEW                                                   complaint mechanisms. Complaints may be made



T
        he OIG’s Office of Investigations responds         anonymously by calling the Hotline, which is staffed
        to allegations of violations of statutes, rules,   and answered 24 hours a day, 7 days a week. Com-
        and regulations and other misconduct by            plaints may also be made to the Hotline through an
SEC staff and contractors. The misconduct investi-         online complaint form, which is accessible through
gated ranges from criminal wrongdoing and fraud            the OIG’s website. In addition to being a mecha-
to violations of SEC rules and policies and the            nism for receiving complaints, the OIG’s website
Standards of Ethical Conduct for Employees of the          provides the public with an overview of the work of
Executive Branch.                                          the Office of Investigations, as well as links to some
                                                           investigative memoranda and reports issued by
The Office of Investigations conducts thorough and         the Office of Investigations. The OIG also receives
independent investigations into allegations received       allegations from SEC employees of waste, abuse,
in accordance with CIGIE Quality Standards for             misconduct, or mismanagement within the Com-
Investigations and the OIG Investigations Manual.          mission through the OIG SEC Employee Suggestion
The Investigations Manual contains the procedures          Program, which was established pursuant to Section
by which the OIG conducts its investigations and           966 of the Dodd-Frank Act.
preliminary inquiries and implements CIGIE Qual-
ity Standards. The Investigations Manual sets forth        The OIG reviews and analyzes all complaints
specific guidance on, among other things, OIG              received to determine the appropriate course of
investigative authorities and policies, investigator       action. In instances where it is determined that
qualifications, independence requirements, proce-          something less than a full investigation is appropri-
dures for conducting investigations and preliminary        ate, the OIG may conduct a preliminary inquiry
inquiries, coordination with the U.S. Department of        into the allegation. If the information obtained
Justice (DOJ), and issuing reports of investigation.       during the inquiry indicates that a full investigation
                                                           is warranted, the Office of Investigations will com-
The OIG receives complaints through the OIG                mence an investigation of the allegation. When an
Complaint Hotline, an office electronic mailbox,           investigation is opened, the primary OIG investiga-
mail, facsimile, and telephone. The OIG Complaint          tor assigned to the case prepares a comprehensive
Hotline consists of both telephone and web-based           plan of investigation that describes the focus and




                                                           APRIL 1, 2012–SEPTEMBER 3O, 2012                  |   27
scope of the investigation, as well as the specific     closed 18 such investigative recommendations dur-
investigative steps to be performed during the          ing the reporting period.
investigation. The OIG investigator interviews the
complainant whenever feasible, and the OIG inves-
tigator may give assurances of confidentiality to       INVESTIGATIONS AND INQUIRIES
potential witnesses who have expressed a reluctance     CONDUCTED
to come forward.
                                                        Investigation Into Misuse of
Where allegations of criminal conduct are involved,     Resources and Violations of Information
the Office of Investigations notifies and works with    Technology Security Policies Within the
DOJ and the Federal Bureau of Investigation (FBI),      Division of Trading and Markets
as appropriate. The OIG also obtains necessary          (Report No. OIG-557)
investigative assistance from OIT, including the        During the semiannual reporting period, the OIG
prompt retrieval of employee e-mails and forensic       completed its investigation of an anonymous
analysis of computer hard drives. The OIG investi-      complaint alleging mismanagement of a computer
gative staff also consults as necessary with the Com-   security lab in the Division of Trading and Mar-
mission’s Ethics Counsel to coordinate activities.      kets. The anonymous complaint alleged that lab
                                                        staff inappropriately allocated and spent significant
Upon completion of an investigation, the OIG            budget dollars to purchase computer equipment for
investigator prepares a comprehensive report of         the lab without justification or planning; used unen-
investigation that sets forth the evidence obtained     crypted laptops during inspections, in violation of
during the investigation. Investigative matters are     SEC information technology security policies; and
referred to SEC management and DOJ as appropri-         inappropriately used SEC funds for training without
ate. The OIG does not publicly release its reports of   filing appropriate training forms. The anonymous
investigation because they contain nonpublic infor-     complaint alleged unprofessional behavior, inef-
mation. The Commission decides whether an OIG           fective management, and misuse of unrestricted
investigative report should be publicly released, in    Internet access.
response to a Freedom of Information Act request
or otherwise.                                           To investigate the allegations in the complaint, the
                                                        OIG obtained and reviewed the e-mail records
In many investigative reports provided to SEC           for eight current and former SEC employees who
management, the OIG makes specific findings and         worked in the lab. The OIG also reviewed numer-
recommendations for consideration of administra-        ous documents pertaining to the lab and took
tive action by management The OIG requests that         on-the-record testimony of twelve current and
management report to the OIG what, if any, admin-       former SEC employees with knowledge of the facts
istrative actions have been taken in response to the    or circumstances surrounding the lab’s operations,
OIG’s recommendations within 45 days of the issu-       functions, or acquisitions.
ance of the report. The OIG follows up as appro-
priate with management to determine the status of       The OIG investigation found that since 2006, lab
administrative action taken in matters referred by      staff spent over $1 million dollars on computer
the OIG. The OIG may also make recommenda-              equipment and software with little oversight or
tions for improvements in policies, procedures, and     planning and that a significant portion of the
internal controls in its investigative reports and      equipment and software purchased was unneeded




28   |   OIG SEMIANNUAL REPORT TO CONGRESS
or never used in the program. The OIG found that         virus protection may not have had that protection
although the lab’s budget was vetted by a project        installed until late 2011.
review board and the actual equipment and soft-
ware purchases were submitted through OIT, nei-          Although no lab laptop was reported lost or
ther the review board nor OIT knew enough about          stolen, the unprotected laptops could have been
the lab, its mission, or the items it was purchasing     compromised. The OIG found evidence that the
to adequately judge whether the money was being          unprotected laptops were left unattended in hotel
effectively spent. Further, the OIG found that the lab   rooms and in offices outside the SEC and that the
continued to spend money on technology despite           laptops were connected to public wireless networks
not having the staff to implement the technology it      at hotels. The OIG also found that the laptops and
was buying. In addition, the OIG discovered that         the data they contained were placed at risk when
some equipment was taken home by lab employees           they were connected to an unfiltered, unmonitored
and used primarily for personal purposes.                Internet connection in the lab, which was used to
                                                         access Internet sites otherwise prohibited by SEC
The OIG also found that some of the lab’s equip-         policy, such as personal e-mail sites. The staff also
ment was purchased based on misrepresentations           used the lab Internet to download freeware onto
made by lab staff in contracting documents. During       the unprotected laptops in violation of SEC policy.
testimony, two lab staff admitted misrepresenting in     Additionally, lab staff, including a manager, brought
contracting documents that the lab needed a certain      in personal computers, which were connected to
brand of computer because the entities the staff         the lab network, thereby potentially infecting that
inspected were commonly using that brand and             network with viruses and malware.
that computer tablets were needed for a specific
method of testing. However, the OIG found that           Further, the OIG found that the lab staff’s multiple
brand of computers identified in the contracting         violations of SEC information technology security
documents was not commonly used at the entities          policies occurred despite the SEC having spent
the staff inspected and that the tablets could not in    hundreds of thousands of dollars training the lab
fact be used for the purpose stated in the contract-     staff. The lab staff had perhaps the largest per
ing documents.                                           person training budget at the SEC, spending, with
                                                         little oversight, an average of $20,000 on training
In addition, the OIG discovered that lab staff mem-      per person per year. Lab staff could choose from a
bers were taking unencrypted laptops and laptops         variety of classes offered by prepaid training ven-
without virus protection on inspections. Because         dors and sign up for those classes without filling out
the laptops used by the lab staff were not config-       training forms usually required for other SEC staff.
ured by OIT, the lab staff members were respon-          Lab staff members were also not required to sign
sible for installing and maintaining encryption          continued service agreements in connection with
and antivirus software on those laptops. However,        their training. Therefore, they were able to leave the
several laptops had no such protection and the           SEC any time after building up their resumes with
lab had no internal policies regarding installing or     tens of thousands of dollars in training paid for by
maintaining encryption and virus protection on the       the SEC.
lab equipment, despite an SEC-wide requirement
that all portable media, including laptops, contain      Overall, the OIG found that lab management did
encryption. Moreover, the OIG found that even            very little to monitor what was happening in the
the few laptops identified as having encryption and      lab. Managers could not physically access the lab




                                                         APRIL 1, 2012–SEPTEMBER 3O, 2012                 |   29
with their badges for several years, did not know        follow-up audits of the lab and, more broadly, of
what equipment the lab purchased or what it was          the purchase of information technology equipment
used for, and did not track or monitor the training      throughout the SEC to ensure that proper controls
that lab staff received. Management also did not put     are in place to prevent waste and potential data
in place policies and procedures to protect the data     breaches in the future.
lab staff collected or take any steps to ensure that
lab staff members abided SEC OIT policies.               Subsequent to the issuance of the OIG’s report, the
                                                         outside vendor the SEC retained to perform forensic
Because of the nature of the issues the OIG discov-      analysis on select lab laptops issued its report, which
ered in its investigation and in an effort to protect    indicated that forensic analysis was performed on
the information contained in the lab and on lab          eight laptops and no evidence of a compromise was
equipment, the OIG informed SEC management               found. The OIG plans to perform further review of
about the issues uncovered in the investigation          this matter as necessary.
before the OIG had issued its report of investigation
in this matter. As a consequence, before the report
was issued, SEC management commenced certain             Physical Altercation and Security Violations
actions to address the problems and deficiencies the     by a Division of Enforcement Contractor
OIG investigation identified. Among other things,        (Report No. OIG-572)
the SEC contracted with an outside forensics team        The OIG opened this investigation immediately
to conduct testing and related work on selected lap-     after learning from a confidential source that an
tops that had been used by the lab staff. In addition,   unauthorized entry and a physical altercation
management implemented several policy changes,           occurred within the SEC headquarters facility.
including requiring that staff use only laptops with     The confidential source informed the OIG that
management’s pre-approved security configurations.       a male, later identified as a Division of Enforce-
SEC management also placed two employees on              ment contractor, circumvented security protocol
paid, non-duty status pending completion of the          by inappropriately granting his girlfriend access to
OIG investigation. Both employees resigned shortly       SEC space and had a physical altercation with the
before the report was issued.                            woman on SEC premises. The confidential source
                                                         stated that the SEC Office of Security Services (OSS)
The OIG issued its report of investigation to man-       and the SEC’s contract security force were made
agement on August 30, 2012, for consideration of         aware of the altercation after security officers who
appropriate administrative action with respect to        are employed by the SEC headquarters building
the individuals responsible for the problems and         landlord—not the SEC—witnessed the incident. The
deficiencies who remained employed by the SEC.           confidential source also alleged that the incident was
The OIG also recommended that (1) OIT exercise           facilitated in part by inadequate security measures.
authority over the lab to ensure its equipment was
properly secured and protected; (2) the lab’s future     The OIG conducted an investigation of this mat-
equipment purchases be properly monitored by             ter and substantiated the allegations that both
another SEC office; and (3) lab staff be required to     an unauthorized entry and a physical altercation
complete appropriate training forms and the SEC          occurred in the SEC’s headquarters on the night in
clarify its policy on continued services agreements.     question. During the course of this investigation,
In addition, the report was provided to the OIG          the OIG took sworn testimony from and inter-
Office of Audits for consideration of conducting         viewed multiple individuals with knowledge of facts




30   |   OIG SEMIANNUAL REPORT TO CONGRESS
relevant to the investigation. The OIG also obtained     SEC may have criminal records. Subsequent to the
and reviewed SEC video footage of the reported           incident in question, OSS management began a
unauthorized entry and physical altercation, as well     review of these contractors’ access to SEC facilities
as relevant documents, including security incident       and systems.
reports, an SEC personnel security file, criminal his-
tory reports and other public records. Additionally,     The OIG issued its report of investigation to man-
the OIG searched approximately 64,000 e-mails for        agement on August 17, 2012, describing the find-
9 current and former SEC employees and contrac-          ings of the investigation in detail. As a result of these
tors relevant to this matter. Further, the OIG visited   findings, the OIG Office of Investigation referred the
the SEC’s Security Command Center to review              identified personnel security and physical security
the camera monitoring function and notified the          deficiencies to the OIG’s Office of Audits for consid-
Washington Metropolitan Police Department of the         eration of appropriate audits. The OIG also referred
incident.                                                the matter to management for purposes of taking
                                                         appropriate corrective action to remedy the findings
The OIG investigation determined that the SEC’s          contained in the report of investigation.
OSS was notified of the physical altercation and
unauthorized access through building management
security, rather than through the SEC’s contract         Fraud, Falsification, and Misuse of Computer
security force. The OIG investigation also found         Resources by Headquarters Employees
that an SEC security camera was trained on the area      (Report No. OIG-563)
where the altercation occurred and there was an          During the semiannual reporting period, the OIG
audible alarm sounding continuously from an SEC          completed its investigation into fraud, falsification,
turnstile, which was triggered when the unidentified     and misuse of computer resources involving two
woman exited the turnstile without an SEC badge.         headquarters employees. The investigation was con-
However, the SEC’s contract security force officers      ducted jointly with the District of Columbia OIG
did not respond to the scene during the incident,        and the U.S. Office of Personnel Management OIG.
but did eventually turn off the sounding alarm. The
OIG’s investigation also revealed that the SEC con-      As noted in our semiannual report for the period
tractor involved in the altercation and unauthorized     ending March 31, 2012, the first employee had pled
entry was allowed to leave the facility that evening     guilty in District of Columbia Superior Court to one
and returned to work the following day, but was          count of first degree felony fraud. In April 2012, the
then removed from the facility.                          employee was sentenced to 365 days in jail with all
                                                         but 20 days suspended and five years of probation,
The OIG investigation further found that the SEC         and was ordered to pay restitution in the amount of
contractor had numerous prior criminal convic-           approximately $30,000.
tions, but was nonetheless was granted a waiver for
investigation requirements to enter on duty, issued      The OIG’s investigation of the second employee’s
a contractor badge, and received full access to SEC      conduct uncovered evidence of various acts of
headquarters and information technology systems          falsification and misuse of government computer
for several years. The contractor was only removed       resources by the employee. Specifically, the investi-
from the SEC contract the day after the physi-           gation uncovered evidence that the employee had
cal altercation occurred. Further, the OIG learned       submitted false claims for expenses of approxi-
from OSS that other contractors employed at the          mately $14,500 to the federal flexible spending




                                                         APRIL 1, 2012–SEPTEMBER 3O, 2012                   |   31
account program during a five-year period, and had      Unauthorized Disclosure of Nonpublic
obtained reimbursement for those false claims. As       Information Concerning an Enforcement Matter
a results of this fraudulent conduct, the employee      (Report No. OIG-575)
received a tax benefit to which she was not entitled    During the semiannual reporting period, the OIG
(of approximately 30 percent of the fraudulent          opened an investigation into a complaint alleging
claims) and potentially avoided forfeiture of contri-   that nonpublic SEC information had been disclosed
bution amounts that she had not spent on qualify-       to a reporter concerning the Commission’s consid-
ing health care or dependent care expenses.             eration of an action recommended by Enforcement
                                                        against a corporation. A news article had been
The investigation also found evidence that the          published electronically shortly before the Com-
employee had submitted fictitious college registra-     mission considered this Enforcement recommenda-
tion statements in order to obtain scholarship funds    tion, which identified the corporation by name and
from a nonprofit charitable organization comprised      described the nature of the charges against the cor-
of former agency employees. These scholarship           poration that were reportedly to be considered by
monies were to be used toward tuition payments          the Commission that day. Commission regulations
for an undergraduate degree program; however,           expressly prohibit SEC employees from disclosing
the employee admitted that she was not attend-          nonpublic information unless specifically authorized
ing classes at the time and used the money to pay       to do so.
household expenses. Finally, the investigation found
evidence that the employee had misused her SEC          The OIG investigated whether a leak in fact
e-mail account in connection with the falsification     occurred and whether there was evidence that the
of her personal credit union statements, which she      source of the leak was an SEC employee. During
used to obtain short-term loans.                        the investigation, the OIG obtained and searched
                                                        over 135,000 e-mails of 28 current or former SEC
On August 31, 2012, the OIG issued a detailed           employees. The OIG also conducted interviews of
report of investigation to management, discussing       the complainant and 26 current SEC employees. In
its findings with respect to the second employee’s      addition, the OIG obtained and reviewed docu-
misconduct. The OIG referred the matter for             ments that were related to the Enforcement inves-
consideration of appropriate administrative action      tigation and Commission action concerning the
against the employee, and such action was pending       corporation, as well as SEC Blackberry telephone
as of the end of the reporting period. In addition,     records and news media articles concerning the
the OIG referred the second employee to the United      SEC’s action against the corporation.
States Attorney’s Office of the District of Columbia,
which declined prosecution in favor of administra-      The OIG investigation confirmed that information
tive action. The OIG also referred evidence concern-    concerning the SEC’s consideration of proceedings
ing the employee’s student loans to the Department      against the corporation was improperly disclosed
of Education OIG.                                       outside the Commission. However, based upon the
                                                        evidence obtained during the investigation, the OIG
                                                        was unable to conclude which specific individual or
                                                        individuals improperly disclosed this information,
                                                        or whether the disclosure was made by someone
                                                        employed outside the SEC. On September 27, 2012,




32   |   OIG SEMIANNUAL REPORT TO CONGRESS
the OIG issued a report of investigation in this       on the available evidence, the OIG was unable to
matter to management for informational purposes.       determine that the contractor was responsible for
The OIG’s report described its findings in detail      that sale or conveyance.
and encouraged management to continue to advise
employees, through training, correspondence, and       After learning of the BlackBerry orders in question,
other means, of the prohibition on disclosing non-     the SEC requested that the contractor be removed
public information without authorization.              from the relevant OIT contract and terminated
                                                       his access to SEC facilities. Shortly thereafter, his
                                                       employment with the contractor was terminated.
Allegations of Theft and/or Improper                   Moreover, during our investigation, we learned that
Handling of SEC Blackberries                           OIT has instituted new procedures for ordering
(Report No. OIG-566)                                   BlackBerries on behalf of the SEC.
The OIG concluded its investigation based upon
a referral from the SEC’s OIT regarding informa-       In light of the fact that the contractor is no longer
tion that it had received from its wireless services   working at the SEC, and that OIT has developed
provider concerning potentially improper orders        new property control procedures, the OIG con-
of BlackBerries on the SEC’s account. Specifically,    cluded that the likelihood of additional harm to the
the wireless services provider notified the SEC that   agency had been greatly reduced. The OIG issued a
certain orders of BlackBerry devices placed on the     report of investigation to management on Septem-
SEC’s account were being shipped to what appeared      ber 18, 2012. The OIG’s report described in detail
to be a residential address, which, upon review, was   the evidence obtained during the investigation and
determined to belong to an SEC contractor.             recommended that OIT formalize and document
                                                       its new procedures in writing to avoid recurrence of
To investigate the alleged theft or improper han-      this situation.
dling of these SEC Blackberries, the OIG took the
sworn testimony of the SEC contractor in ques-
tion. During his testimony, the contractor admitted    Allegation of Leak of Draft Interagency Rule
that he had ordered the BlackBerry devices and         (PI 12-01)
had them shipped to his home address, but stated       The OIG completed its inquiry into the public
that he had brought all the devices into the office    disclosure of a confidential draft document prepared
and deployed them to the agency. The OIG also          in connection with the so-called “Volcker Rule.”  
conducted interviews of relevant OIT personnel,        Under the Dodd-Frank Act, the SEC, along with
who informed the OIG that these BlackBerries were      four other financial and bank regulatory agencies,
not in the SEC’s possession. The OIT personnel         was tasked with coordinating and issuing certain
also informed the OIG that the SEC contractor did      rules, including the Volcker Rule, which would
not have the authority to order these devices on       implement the Dodd-Frank Act’s prohibition of,
behalf of the SEC. In addition, the OIG consulted      among other things,  proprietary trading by banking
the wireless services provider, which informed the     entities. The SEC has worked with the four other
OIG that at least some of these BlackBerry devices     agencies on the rulemaking process. On October 5,
ordered by the contractor and shipped to his home      2011, a banking industry newspaper published on
are active on a non-SEC account. Accordingly, the      its website an article stating that it had obtained a
OIG concluded that these BlackBerries were sold        draft document outlining key details of the Volcker
or otherwise conveyed to non-SEC users, but based      Rule and containing a link to a 205-page PDF file




                                                       APRIL 1, 2012–SEPTEMBER 3O, 2012                |   33
purporting to be that draft document. The OIG            raising efforts and whether the personal solicitations
opened its inquiry into the public disclosure of that    made on a school’s behalf were permissible.
draft document on October 13, 2011, after being
contacted by the Senate Banking Committee.               During this inquiry, the OIG reviewed relevant
                                                         time and attendance and regional office security log
The OIG’s inquiry focused on determining whether         records. Additionally, the OIG examined the senior
there was any evidence that the draft document was       counsel’s remote computer access to the SEC net-
disclosed by anyone within the SEC and, if so, by        work and obtained and searched the senior coun-
whom. During its inquiry, the OIG obtained and           sel’s e-mails for pertinent time periods. In addition,
searched e-mails of 48 current and former SEC            the OIG took the testimony of the senior counsel’s
employees who had some involvement in the rule-          supervisor and attempted to take the testimony of
making process during the relevant time period. The      the senior counsel, who terminated the interview.
OIG also took the sworn testimony of 42 current
SEC employees.                                           The OIG inquiry found evidence that the regional
                                                         office senior counsel violated the Standards of Ethi-
The OIG inquiry did not identify any source within       cal Conduct for Employees of the Executive Branch
the SEC who provided a copy of the draft document        by using official time and resources to support
to the industry newspaper or any other entity or         various school fundraisers. The OIG also found
person outside the SEC or the coordinating agen-         that the amount of work time the senior counsel
cies working on the rule. Additionally, the OIG was      spent on school fundraisers was excessive and may
unable to identify any draft within the SEC files it     have diminished his work productivity. Further,
reviewed that corresponded exactly to the version of     the OIG determined that among the companies the
the draft document published by the newspaper. As        senior counsel solicited for school fundraisers were
a result, on July 27, 2012, the OIG issued a memo-       publicly traded companies, which are “prohibited
randum report describing the results of its inquiry to   sources” for solicitation by SEC employees. The
management for informational purposes.                   OIG also found that the senior counsel improperly
                                                         used his SEC title (in addition to his SEC e-mail
                                                         account) in personal solicitations on behalf of the
Allegations of Misuse of Official Time and               schools for which he was fundraising. Finally, the
Violation of Time and Attendance Rules                   OIG substantiated the allegation that the employee
(PI 12-16)                                               frequently arrived at work late, and also found that
The OIG conducted a preliminary inquiry into             the employee’s supervisor was aware of this issue
an anonymous complaint alleging that a regional          and had brought it to the senior counsel’s attention.
office senior counsel regularly arrived for work late
and also left the office during core business hours      As a result of the OIG’s findings, the OIG issued a
without taking leave for these absences. A subse-        memorandum report to management on August
quent anonymous complaint alleged that this senior       2, 2012, and referred the matter for consideration
counsel was a board member of a local school             of administrative action against the employee. The
organization and exhibited unethical behavior in         OIG also obtained a declination of criminal pros-
the workplace. During the inquiry, the OIG also          ecution in the matter, and administrative action by
considered whether the senior counsel used official      management was pending at the end of the report-
time and SEC resources to improperly support fund-       ing period.




34   |   OIG SEMIANNUAL REPORT TO CONGRESS
Review of Legislation and Regulations


D
         uring the semiannual reporting period, the    policies were outdated and recommended that
         OIG reviewed legislation and proposed and     the all of the agency’s COOP policies and proce-
         final rules and regulations relating to the   dures be revised and updated. Similarly, during its
SEC’s programs and operations, pursuant to Section     audit of the SEC’s record management practices
4(a)(2) of the Inspector General Act, as amended.      (Report No. 505, issued September 30, 2012), the
                                                       OIG reviewed the SEC administrative regulations
In particular, the OIG reviewed the requirements       pertaining to records management and found that
and history of Section 1504 of the Dodd-Frank          they had not been updated for several years, with
Act, which mandated reporting of payments made         one regulation dating back to May 1991. The OIG
to governments for the extraction of oil, natural      recommended that the Office of Support Opera-
gas, and minerals by companies that must file          tions ensure that these regulations are revised.
disclosures with the SEC, as well as the status of
the SEC’s related rulemaking. The OIG’s review         During an investigation completed during the
was performed in response to a request from U.S.       reporting period into the misuse of resources and
Senators Richard Lugar and Benjamin Cardin, the        violations of information technology security
sponsors of the amendment that became Section          policies (Report No. OIG-557, issued August 30,
1504, that the OIG evaluate the status of the SEC’s    2012), the OIG reviewed the requirements of the
implementation of Section 1504.                        SEC’s training and development policy in effect
                                                       at the time of the conduct described in the OIG’s
The OIG also reviewed statutes, rules, and regula-     report. In particular, the OIG reviewed the para-
tions, and their impact on Commission programs         graph of the policy related to continued service
and operations, within the context of reviews,         agreements for training and recommended clari-
audits, and investigations conducted during the        fication of this policy. The former training and
reporting period. For example, in the OIG’s review     development policy has been superseded by a new
of the SEC’s COOP (Report No. 502, issued April        administrative regulation on continued service
23, 2012), the OIG reviewed the SEC OIT poli-          agreements for education and training.
cies and procedures relating to business continuity
management, business impact analysis, and disaster     Also during the reporting period, the OIG reviewed
recovery planning. The OIG determined that these       a draft administrative regulation on the manage-




                                                       APRIL 1, 2012–SEPTEMBER 3O, 2012              |   35
ment and administration of service contracts and       Finally, in coordination with the Legislation Com-
a related draft operating procedure and checklist.     mittee of the CIGIE and other OIGs, the SEC OIG
The OIG provided comments on the draft docu-           reviewed and tracked various legislation that would
ments based upon information acquired during           impact OIGs, including H.R. 4404, “Sunshine on
an investigation the OIG had conducted during          Government Act of 2012,” and S. 300, “Govern-
the previous semiannual reporting period into an       ment Charge Card Abuse Prevention Act.”
allegation of an improper personal services contract
(Report OIG-569, issued March 29, 2012).




36   |   OIG SEMIANNUAL REPORT TO CONGRESS
management decisions


 STATUS OF RECOMMENDATIONS WITH NO MANAGEMENT DECISIONS
 Management decisions have been made on all audit reports issued before the beginning of this reporting
 period.



 REVISED MANAGEMENT DECISIONS
 No management decisions were revised during the period.



 AGREEMENT WITH SIGNIFICANT MANAGEMENT DECISIONS
 The Office of Inspector General agrees with all significant management decisions regarding audit
 recommendations.



 INSTANCES WHERE INFORMATION WAS REFUSED
 During this reporting period, there were no instances where information was refused.




                                                     APRIL 1, 2012–SEPTEMBER 3O, 2012               |   37
tableS

Table 1. List of Reports: Audit and Evaluations

    Report Number 	                                    Title	Date Issued
    	      502	Review of the SEC’s Continuity of Operations Program 	              4/23/12
    	      505	SEC’s Records Management Practices	                                 9/30/12
    	 508	The Office of International Affairs Internal
    		     Operations and Travel Oversight	                                        9/30/12




Table 2. Reports Issued with Costs Questioned or Funds Put to Better Use
(Including Disallowed Costs)

				No. of Reports                                                                 	   Value
A. 	Reports issued prior to this period
	For which no management decision had been made on any
  issue at the commencement of the reporting period	                       0	              $0
	       For which some decisions had been made on some issues at the
        commencement of the reporting period	                              0	              $0
B. 	Reports issued during this period	                                     0	              $0
    		                                      Total of Categories A and B	0	                 $0

C. 	For which final management decisions were made during this period	     0	              $0
D. 	For which no management decisions were made during this period	        0	              $0
E. 	For which management decisions were made on some issues
    during this period	                                                    0	              $0
    		                                      Total of Categories C, D, and E	0	             $0




                                                        APRIL 1, 2012–SEPTEMBER 3O, 2012   |    39
Table 3. Reports with Recommendations on which Corrective Action has not been Completed
Recommendations Open 180 days or more

	Report Number	Issue Date	Summary of Recommendations
	   and Title
439—Student Loan Program      3/27/2008    In consultation with the National Treasury Employees
                                           Union, develop a detailed distribution plan.
474—Assessment of the         3/29/2010    Develop a communication plan to address outreach to
SEC’s Bounty Program                       both the public and SEC personnel regarding the SEC
                                           bounty program, which includes efforts to make informa-
                                           tion available on the SEC’s intranet, enhance informa-
                                           tion available on the SEC’s public website, and provide
                                           training to employees who are most likely to deal with
                                           whistleblower cases.
                                           Examine ways in which the Commission can increase
                                           communications with whistleblowers by notifying them
                                           of the status of their bounty requests without releasing
                                           nonpublic or confidential information during the course of
                                           an investigation or examination.
                                           Require that a bounty file (hard copy or electronic) be cre-
                                           ated for each bounty application, which should contain at
                                           a minimum the bounty application, any correspondence
                                           with the whistleblower, documentation of how the whistle-
                                           blower’s information was utilized, and documentation
                                           regarding significant decisions made with regard to the
                                           whistleblower’s complaint.
                                           Incorporate best practices from the Department of Justice
                                           (DOJ) and the Internal Revenue Service (IRS) into the
                                           SEC bounty program with respect to bounty applica-
                                           tions, analysis of whistleblower information, tracking of
                                           whistleblower complaints, recordkeeping practices, and
                                           continual assessment of the whistleblower program.
                                           Set a timeframe to finalize new policies and procedures
                                           for the SEC bounty program that incorporate the best
                                           practices from DOJ and IRS, as well as any legislative
                                           changes to the program.
480—Review of the SEC’s       9/27/2010    Update Form 13F to a more structured format, such as
Section 13(f) Reporting                    Extensible Markup Language, to make it easier for users
Requirements                               and researchers to extract and analyze Section 13(f)
                                           data.
482—Oversight of and          6/29/2011    Develop processes, including written policies and
Compliance with Conditions                 procedures, regarding reviewing for compliance with
and Representations Related                conditions and representations in exemptive orders and
to Exemptive Orders and                    no-action letters issued to regulated entities on a risk basis.
No-Action Letters




40   |   OIG SEMIANNUAL REPORT TO CONGRESS
Table 3. Reports with Recommendations, continued
Recommendations Open 180 days or more

	Report Number	Issue Date	Summary of Recommendations
	   and Title
                                           In plans for implementing Section 965 of the Dodd-Frank
                                           Wall Street Reform and Consumer Protection Act, develop
                                           procedures to coordinate examinations with those
                                           conducted by the Office of Compliance Inspections and
                                           Examinations and, as appropriate, include provisions for
                                           reviewing for compliance with the conditions in exemptive
                                           orders and representations made in no-action letters on a
                                           risk basis.
                                           In connection with monitoring efforts, include compliance
                                           with the conditions and representations in significant
                                           exemptive orders and/or no-action letters issued to regu-
                                           lated entities as risk considerations.
485—Assessment of the        9/29/2010     Evaluate risk assessment processes for scoring risk to ensure
SEC’s Privacy Program                      that the Office of Information Technology adequately weighs
                                           all appropriate factors, including the identification of risk
                                           levels by vendors.
                                           Implement an agency-wide policy regarding shared folder
                                           structure and access rights, ensuring that only the employ-
                                           ees involved with a particular case have access to that
                                           data. If an employee backs up additional information to
                                           the shared resources, only the employee and his or her
                                           supervisor should have access.
                                           Ensure personal storage tab (PST) files are saved to a
                                           protected folder.
489—2010 Annual FISMA        3/3/2011      Complete a logical access integration of the Homeland
Executive Summary Report                   Security Presidential Directive 12 card no later than
                                           December 2011, as reported to the Office of Manage-
                                           ment and Budget on December 31, 2010.
491—Review of Alternative    9/28/2011     In developing the new Human Capital Directive, work
Work Arrangements,                         with the National Treasury Employees Union to deter-
Overtime Compensation,                     mine whether additional alternative work schedules, such
and COOP-Related                           as the gliding, variable day, variable week, three-day
Activities at the SEC                      workweek, and Maxiflex options described in the Office
                                           of Personnel Management Handbook on Alternative
                                           Work Schedules, should be adopted as options for SEC
                                           employees.




                                                   APRIL 1, 2012–SEPTEMBER 3O, 2012                 |   41
Table 3. Reports with Recommendations, continued
Recommendations Open 180 days or more

	Report Number	Issue Date	Summary of Recommendations
	   and Title
                                           Negotiate revisions to the language in the collective
                                           bargaining agreement between the Commission and the
                                           National Treasury Employees Union with respect to the
                                           use of credit hours by employees working conforming
                                           schedules, ensuring that the revised language conforms
                                           with applicable law.
                                           Perform server stress tests that incorporate a variety of
                                           applications used with remote access.
492—Audit of SEC’s           8/2/2011      Develop and implement a mechanism to reward employ-
Employee Recognition                       ees for superior or meritorious performance within their
Program and Recruitment,                   job responsibilities through lump-sum performance
Relocation, and Retention                  awards.
Incentives
493—OCIE Regional           3/30/2011      Continue efforts to establish a complete interface between
Offices’ Referrals to                      the Super Tracking and Review System or its equivalent,
Enforcement                                the Hub, and the Tips, Complaints, and Referrals system.
497—Assessment of SEC’s     8/11/2011      Ensure that security controls configurations that are
Continuous Monitoring                      applied in the production environment are identical with
Program                                    those applied in the testing environment.
                                           Develop and implement written procedures to ensure
                                           consistency in the Commission’s production and testing
                                           environments. These procedures should detail the software
                                           and hardware components in both environments and
                                           specify the actions required to maintain consistent
                                           environments.
                                           Complete and finalize written server and storage log
                                           management policies and procedures that fully document
                                           the roles and responsibilities for log capture, manage-
                                           ment, retention, and separation of duties.
                                           Analyze the level of criticality of the Commission data and
                                           the needs and wants of its customers, and establish an
                                           appropriate backup retention period based on the results of
                                           the analysis and that meets the requirements of the
                                           Commission.
                                           Ensure that tapes are handled appropriately.
500—Assessment of SEC’s     3/16/2011      Identify capacity requirements for all servers, ensure suf-
System and Network Logs                    ficient capacity is available for the storage of audit records,
                                           configure auditing to reduce the likelihood that capacity
                                           will be exceeded, and implement a mechanism to alert and
                                           notify appropriate Commission office/divisions when log
                                           storage capacity is reached.



42   |   OIG SEMIANNUAL REPORT TO CONGRESS
Table 3. Reports with Recommendations, continued
Recommendations Open 180 days or more

	Report Number	Issue Date	Summary of Recommendations
	   and Title
                                           Review and update all logging policies and procedures
                                           consistent with the policy’s review interval requirements and
                                           retain evidence of its reviews and any updates to the policy.
501—2011 Annual FISMA        2/2/2012      Develop and implement a detailed plan to review and
Executive Summary Report                   update OIT security policies and procedures and to create
                                           OIT security policies and procedures for areas that lack
                                           formal policy and procedures.
                                           Develop a comprehensive risk management strategy in
                                           accordance with National Institute of Standards and Tech-
                                           nology’s (NIST) Guide for Applying the Risk Management
                                           Framework to Federal Information Systems: A Security Life
                                           Cycle Approach, which will ensure that management of
                                           system-related security risks is consistent with the Commis-
                                           sion’s mission/business objectives and overall risk strategy.
                                           Update risk management policy to include language
                                           regarding developing a comprehensive governance struc-
                                           ture and ensure that management of system-related security
                                           risks is consistent with the Commission’s mission/business
                                           objectives and overall risk strategy.
                                           Develop and implement a formal risk management proce-
                                           dure that identifies an acceptable process for evaluating
                                           system risk consistent with the Commission’s mission or busi-
                                           ness objectives and overall risk strategy.
                                           Develop and implement formal policy that addresses tailor-
                                           ing baseline security controls sets.
                                           Determine whether to perform the tailoring process at the
                                           organization level for all information systems (either as the
                                           required tailored baseline or as the starting point for system-
                                           specific tailoring) at the individual information system level,
                                           or by using a combination of organization-level and system-
                                           specific approaches.
                                           Tailor a baseline security controls set (with rationale) for
                                           applicable systems in accordance with NIST’s Guide for
                                           Applying the Risk Management Framework to Federal
                                           Information Systems: A Security Life Cycle Approach, and
                                           NIST’s Recommended Security Controls for Federal Informa-
                                           tion Systems and Organizations.
                                           Review and document the current standard baseline con-
                                           figuration, including identification of approved deviations
                                           and exceptions to the standard.




                                                   APRIL 1, 2012–SEPTEMBER 3O, 2012                    |     43
Table 3. Reports with Recommendations, continued
Recommendations Open 180 days or more

	Report Number	Issue Date	Summary of Recommendations
	   and Title
                                                        Conduct compliance scans of information technology
                                                        devices, according to the organizationally defined frequen-
                                                        cy in the policy and procedures, to ensure that all devices
                                                        are configured as required by OIT’s configuration manage-
                                                        ment policy and procedures.
                                                        Update policy and include language indicating that devia-
                                                        tions from baseline configurations that are identified and
                                                        documented as a result of the configuration compliance
                                                        scans are properly remediated in a timely manner.
                                                        Complete the implementation of the technical solution
                                                        for linking multi-factor authentication to Personal Identity
                                                        Verification cards for system authentication and require use
                                                        of the cards as a second authentication factor by December
                                                        2012.
 PI-09-05—SEC Access Card            2/22/2010          Ensure, on a Commission-wide basis, that all regional
 Readers in Regional Offices                            offices are capable of capturing and recording building
                                                        entry and exit information of Commission employees.
 ROI-505—Failure to Timely           2/26/2010          Ensure as part of changes to complaint handling system that
 Investigate Allegations of                             databases used to refer complaints are updated to accu-
 Financial Fraud                                        rately reflect status of investigations and identity of staff.
 ROI-544—Failure to Com-             1/20/2011          Take immediate measures to determine whether every OIT
 plete Background Investiga-                            employee and contractor has been properly cleared by a
 tion Clearance Before Giving                           background investigation and issued an official SEC badge.
 Access to SEC Buildings and
 Computer Systems
 ROI-551—Allegations of              3/30/2011          Employ technology that will enable the agency to maintain
 Unauthorized Disclosures of                            records of phone calls made from and received by SEC
 Nonpublic Information                                  telephones.
 During SEC Investigations
 ROI-560—Investigation of            9/16/2011          Reconsider position that net equity for Madoff customer
 Conflict of Interest Arising                           claims be calculated in constant dollars by conducting a
 from Former General Coun-                              re-vote, and advise the bankruptcy court of the results.
 sel’s Participation in Madoff-
 Related Matters*

*Shortly after the close of the semiannual reporting period, the Commission conducted a re-vote. The Commission is in the
process of advising the bankruptcy court of the results of the re-vote.




44   |   OIG SEMIANNUAL REPORT TO CONGRESS
Table 4. Summary of Investigative Activity

  Cases	Number
  Cases Open as of 3/31/2012	                                                        10
  Cases Opened during 4/1/2012 - 9/30/2012	                                           4
  Cases Closed during 4/1/2012 - 9/30/2012	                                           8
  Total Open Cases as of 9/30/2012	                                                   6
  Referrals to Department of Justice for Prosecution	                                 3
  Prosecutions	0
  Convictions	0
  Referrals to OIG Office of Audits	                                                  2
  Referrals to Agency for Administrative Action	                                      4


  Preliminary Inquiries	Number
  Inquiries Open as of 3/31/2012	                                                    58
  Inquiries Opened during 4/1/2012 - 9/30/2012	                                      14
  Inquiries Closed during 4/1/2012 - 9/30/2012	                                      31
  Total Open Inquiries as of 9/30/2012	                                              41
  Referrals to Department of Justice for Prosecution	                                 1
  Referrals to Agency for Administrative Action	                                      1


  Disciplinary Actions (including referrals made in prior periods)	Number
  Removals (Including Resignations and Retirements)	                                  5
  Suspensions	3
  Reprimands	0
  Warnings/Other Actions	                                                             3




                                                        APRIL 1, 2012–SEPTEMBER 3O, 2012   |   45
Table 5. Summary of Complaint Activity

     Complaints Received During the Period	Number
     Complaints Pending Disposition at Beginning of Period	         1
     Hotline Complaints Received	                                  172
     Other Complaints Received	                                    110
     Total Complaints Received	                                    282
     Complaints on which a Decision was Made	                      270
     Complaints Awaiting Disposition at End of Period	             13


     Dispositions of Complaints During the Period	Number
     Complaints Resulting in Investigations	                        3
     Complaints Resulting in Inquiries	                            13
     Complaints Referred to OIG Office of Audits	                   1
     Complaints Referred to Other Agency Components	               153
     Complaints Referred to Other Agencies	                        10
     Complaints Included in Ongoing Investigations or Inquiries	    6
     Response Sent/Additional Information Requested	               44
     No Action Needed	                                             42




46    |   OIG SEMIANNUAL REPORT TO CONGRESS
Table 6. References to Reporting Requirements of the Inspector General Act
The Inspector General Act of 1978, as amended, specifies reporting requirements for semiannual reports to
Congress. The requirements are listed below and indexed to the applicable pages.

  Section	Inspector General Act Reporting Requirement	Pages
  4(a)(2)	Review of Legislation and Regulations	                                                 35–36
  5(a)(1)	Significant Problems, Abuses, and Deficiencies	                         9–12; 18–23; 28–34
  5(a)(2)	Recommendations for Corrective Action	                                         18–23; 28–34
  5(a)(3)	Prior Recommendations Not Yet Implemented	                                             40–44
  5(a)(4)	     Matters Referred to Prosecutive Authorities	                                          45
  5(a)(5)	Summary of Instances Where Information Was Unreasonably
  		Refused or Not Provided	                                                                         37
  5(a)(6)	List of OIG Audit and Evaluation Reports Issued During the Period	                         39
  5(a)(7)	Summary of Significant Reports Issued During the Period	                       18–23; 28–34
  5(a)(8)	Statistical Table on Management Decisions with Respect to
  		Questioned Costs	                                                                                39
  5(a)(9)	Statistical Table on Management Decisions on
  		Recommendations That Funds Be Put to Better Use	                                                 39
  5(a)(10)	Summary of Each Audit, Inspection or Evaluation Report Over
  		Six Months Old for Which No Management Decision has been Made	                                   37
  5(a)(11)	Significant Revised Management Decisions	                                                 37
  5(a)(12)	Significant Management Decisions with Which the Inspector 	
  		           General Disagreed	                                                                    37
  5(a)(14)	Appendix of Peer Reviews Conducted by Another OIG	                                        49




                                                        APRIL 1, 2012–SEPTEMBER 3O, 2012              |     47
appendix A. Peer Reviews of OIG Operations


PEER REVIEW OF THE SEC OIG’S                             PEER REVIEW OF THE SEC OIG’S
AUDIT OPERATIONS                                         INVESTIGATIVE OPERATIONS
In accordance with the CIGIE quality control and         During the semiannual reporting period, the SEC
assurance standards, an OIG’s audit functions are        OIG did not have an external peer review of its
assessed by an external OIG audit team approxi-          investigative operations. Peer reviews of Designated
mately every three years. The Legal Services Corpo-      Federal Entity OIGs, such as the SEC OIG, are
ration (LSC) OIG conducted an assessment of the          conducted on a voluntary basis. The most recent
Office of Audit’s system of quality control for the      peer review of the SEC OIG’s investigative opera-
period ending March 31, 2012. The review focused         tions was conducted by the U.S. Equal Employment
on whether the SEC OIG established and complied          Opportunity Commission (EEOC) OIG. The EEOC
with a system of quality control that is suitably        OIG issued its report on the SEC OIG’s investigative
designed to provide the OIG with a reasonable            operations in July 2007. This report concluded that
assurance of conforming with applicable profes-          the SEC OIG’s system of quality for the investigative
sional standards.                                        function conformed to the professional standards
                                                         established by the President’s Council on Integrity
On August 23, 2012, LSC OIG issued its report,           and Efficiency and the Executive Council on Integ-
concluding that the SEC OIG complied with the            rity and Efficiency (now CIGIE).
system of quality control and that it was suitably
designed to provide the SEC OIG with reasonable          The OIG plans to submit a request to CIGIE’s Inves-
assurance of performing and reporting in conformi-       tigations Committee for an investigative operations
ty with applicable government auditing standards in      peer review during fiscal year 2013.
all material respects. Federal audit organizations can
receive a rating of “pass,” “pass with deficiencies,”
or “fail.”  The SEC OIG received a “pass” rating,
and no recommendations were made. Further, there
are no outstanding recommendations from previous
peer reviews of our audit organization.

A copy of the peer review report was provided to
the SEC Chairman and Commissioners. The peer
review report is located on OIG’s website at:
www.sec-oig.gov/Reports/Semiannual/2012/
OIG_SAR_Spring2012.pdf




                                                         APRIL 1, 2012–SEPTEMBER 3O, 2012               |   49
appendix B. Annual Report on the OIG SEC Employee
Suggestion Hotline—Issued Pursuant to Section 966 of the
Dodd-Frank Act


INTRODUCTION AND BACKGROUND                            The program operates pursuant to formal policies
The OIG established the OIG SEC Employee Sug-          and procedures, which were adopted on March 30,
gestion Program in accordance with Section 966 of      2011, and encompass both the receipt and handling
the Dodd-Frank Wall Street Reform and Consumer         of employee suggestions and allegations, as well
Protection Act (Dodd-Frank Act). Under Section         as recognition of employees whose suggestions or
966 of the Dodd-Frank Act, the Securities Exchange     disclosures to the OIG may result or have resulted
Act of 1934 (15 U.S.C. § 78a et seq.) (Exchange        in cost savings to or efficiencies within the Com-
Act) was amended to include a new Section 4D (15       mission. The OIG held the first OIG SEC Employee
U.S.C. § 78d-4), which required the Inspector Gen-     Suggestion Program awards ceremony in December
eral to establish a suggestion program for employees   2011, during which several SEC employees who had
of the Commission. The OIG established its Employ-     made suggestions resulting in agency cost savings
ee Suggestion Program on September 27, 2010.           were honored.

In accordance with Section 4D(d) of the Exchange
Act, SEC OIG has prepared this second annual           SUMMARY OF EMPLOYEE SUGGESTIONS
report containing a description of suggestions and     AND ALLEGATIONS RECEIVED
allegations received, recommendations made or          Between October 1, 2011 and September 30, 2012,
action taken by the OIG, and action taken by the       the OIG received and analyzed 53 suggestions or
Commission in response to suggestions or allega-       allegations. Set forth below are details regarding:
tions from October 1, 2011, through September 30,
2012.                                                  (1)	 The nature, number, and potential benefits of
                                                            any suggestions received.
Through this program, the OIG receives suggestions     (2)	 The nature, number, and seriousness of any
from Commission employees for improvements                  allegations received.
in work efficiency, effectiveness, productivity, and   (3)	 Any recommendations made or actions taken
the use of the resources of the Commission, as well         by the OIG in response to substantiated allega-
as allegations by employees of the Commission of            tions received.
waste, abuse, misconduct, or mismanagement within      (4)	 Any action taken by the Commission in
the Commission. The OIG receives suggestions or             response to suggestions or allegations received.
allegations under this program through an e-mail
mailbox and telephone hotline established to facili-
tate the making of suggestions or allegations.




50   |   OIG SEMIANNUAL REPORT TO CONGRESS
  Nature and Potential Benefits of Suggestions	Number
  Increase efficiency or productivity 	                                                                              12
  Increase effectiveness 	                                                                                           15
  Increase the use of resources or decrease costs 	                                                                  14


  Nature and Seriousness of Allegations1	Number
  Mismanagement and/or discrimination 	                                                                                2
  Waste of Commission resources	                                                                                       7
  Misconduct by an employee	                                                                                           3


  Nature and Potential Benefits of Suggestions	                                                                    Number
  Memorandum to or communication with the Commission requesting action be taken	                                     14
  Referred to OIG Office of Investigations 	                                                                           3
  Referred to OIG Office of Audits	                                                                                    1
  OIG Office of Investigations opened preliminary inquiry	                                                             2
  Researched issue, but no further action by the Commission was necessary 	                                          22


  Action Taken by the Commission2 	Number
  SEC management took specific action to address the suggestion	                                                       4
  The Commission decided to secure new technology in response to the suggestion	                                       1
  SEC management is considering suggestion in context of existing procedures	                                          2
  1Suggestions and/or allegations may fall into more than one category and, as such, the numbers below may be greater than
  the total number of suggestions/allegations received.
  2 This table represents the Commission’s response to suggestions and allegations that were referred to the Commission for
  consideration and for which a response was received during the reporting period.




EXAMPLES OF SUGGESTIONS RECEIVED                                    online refund request form or process be developed
                                                                    to make the refund process more efficient for filers
EDGAR Electronic Refund Requests                                    and SEC staff who process the refunds.
The OIG received a suggestion from an employee
regarding fee-bearing filings made through the                      After reviewing and analyzing the suggestion
SEC’s Electronic Data Gathering, Analysis, and                      received, the OIG forwarded it to the Office of
Retrieval (EDGAR) system and the process by                         Financial Management, which concurred with the
which EDGAR users request refunds of excess filing                  suggestion. In July 2012, the EDGAR system was
fees paid. At the time the suggestion was received,                 upgraded to support the electronic submission of
users were required to submit refund requests by                    requests for refunds of excess fees paid. In August
mail or facsimile. The employee suggested that an                   2012, the SEC adopted revisions to the EDGAR




                                                                   APRIL 1, 2012–SEPTEMBER 3O, 2012                           |   51
Filer Manual to reflect the updates made to the         employees. The employee making the suggestions
EDGAR system.                                           further stated that the creation of an expertise data-
                                                        base to catalogue information regarding employees’
Hard Copy CCHs                                          previous work experience would allow colleagues
An employee suggested that cost savings could be        to become more familiar with other employees
achieved if the Commission decreased its number         throughout the Commission and facilitate knowl-
of subscriptions to hard copy Commerce Clearing         edge sharing and organizational understanding.
House (CCH) securities law books and their cor-
responding regular hard copy updates and instead        The Division of Enforcement maintains a facebook
encouraged the use of CCH’s online service, CCH         and directory that includes certain staff informa-
IntelliConnect. The Commission pays an annual fee       tion, such as photograph, phone number, e-mail
per hard copy of the CCH securities law volumes,        address, office location, position, and start date.
but pays a regular annual subscription fee for the      We discussed the suggestions we received with a
online version that is not dependent on the number      representative of the SEC’s SharePoint Executive
of users. Currently, the Commission spends over         Steering Committee, who stated that the SEC is
$300,000 per year for hard copy subscriptions.          currently considering expanding the facebook/
                                                        directory feature to other offices and divisions.
The OIG determined that, while the Commission           Further, according to the Steering Committee repre-
has taken certain initiatives to decrease the number    sentative, the Committee believes that the inclusion
of hard copy CCH purchases, additional steps could      of an expertise database could improve efficiency
be taken to reduce the costs associated with hard       and effectiveness by facilitating knowledge sharing
copy CCHs. The OIG forwarded the suggestion             and there is wide support throughout the Commis-
to the SEC’s Branch of Library Services and sug-        sion for such a feature. The representative added
gested that it consider taking steps to ensure that     that the Committee was already in the process of
additional information regarding the availability of    considering and/or taking steps to implement this
this resource online be communicated to the staff       suggestion.
on a regular basis. The OIG also recommended that
the Branch of Library Services provide information      Paper and Supply Waste
to staff regarding the price discrepancy between        The OIG received several suggestions relating to
the hard copy and online CCH versions, and offer        paper and supply waste and ways in which such
training on the online resource to encourage more       waste could be decreased or eliminated. One of
employees to use it. As of September 30, 2012, SEC      these suggestions related to the use of specialized
management was still considering its response to        “Tech Wipes,” which are specifically designed to
this suggestion.                                        be used for aerospace, electronics, and laboratories,
                                                        but, according to the employee, are instead used
Employee Directories                                    by many employees as paper towels. The OIG
The OIG received suggestions concerning the             forwarded this suggestion to the SEC’s Facilities
creation of an agency-wide employee directory           Branch, which stated that these wipes were pur-
or organizational chart that would include staff        chased for and had specific uses, but agreed to limit
photos, titles, and other relevant information which,   the distribution, thereby decreasing their unneces-
according to the employee, would facilitate organi-     sary or unintended use.
zational understanding for both new and long-term




52   |   OIG SEMIANNUAL REPORT TO CONGRESS
Another suggestion we received related to the print-    the federal government to its employees and federal
ing of certificates through the Commission’s Lead,      contractors. According to the Office of Security
Learn, and Perform (LEAP) training management           Services, the Commission’s previous security services
system. According to this suggestion, the course        were outdated and were not in compliance with
completion certificates printed through LEAP were       HSPD-12, and the new systems were cost-effective
formatted to use three sheets of paper, with the        and went through a substantial review process
third page being blank. The employee suggested          before implementation. The OIG determined that
that the certificate be reformatted to use only one     there appeared to be adequate justification for the
sheet of paper and, therefore, decrease waste. The      replacement and/or upgrade of security services on
OIG contacted the Office of Human Resources,            an agency-wide basis.
which indicated that it recognized the issue and then
worked with the software vendor to eliminate the        Referrals to the Office of Investigations
unnecessary pages for printed certificates.             The OIG received four allegations that resulted in
                                                        referrals to the OIG’s Office of Investigations. Alle-
                                                        gations related to retaliation against an employee,
EXAMPLES OF ALLEGATIONS RECEIVED                        as well as mismanagement and discrimination by
                                                        a supervisor, were referred for inclusion in ongo-
Replacement of Physical Security                        ing preliminary inquiries. In addition, the Office of
Systems in Regional Offices                             Investigations opened preliminary inquiries based
The OIG received an allegation regarding the Com-       on the receipt of an allegation of potential miscon-
mission’s replacement of physical security systems      duct by contractors and allegations of mismanage-
in the regional offices. Specifically, the employee     ment, preferential treatment of contractors, and
alleged that the decision to replace card readers and   theft.
cameras in the regional offices was based on the
fact that there were issues with such readers and
cameras in SEC headquarters in Washington, D.C.         CONCLUSION
According to the employee, the replacements in the      The OIG is pleased with the Employee Sugges-
regional offices were unnecessary and a waste of        tion Program effectiveness. We received favorable
Commission resources.                                   responses from the SEC on several suggestions
                                                        we submitted to them for consideration. Many
The OIG discussed this allegation with the SEC’s        suggestions resulted in positive changes that will
Office of Security Services and learned that Com-       improve SEC employee’s efficiency and effectiveness
mission-wide changes to “access control systems,”       and increase the use of SEC’s resources, as well as
which included video cameras, alarm systems, and        decrease waste.
card readers, were required to improve security and
become compliant with Homeland Security Presi-          The OIG anticipates additional favorable responses
dential Directive 12 (HSPD-12). HSPD-12 provides        to suggestions that the SEC is currently reviewing.
for a mandatory, government-wide standard for           We continue to encourage SEC employees to submit
secure and reliable forms of identification issued by   suggestions to OIG.




                                                        APRIL 1, 2012–SEPTEMBER 3O, 2012                 |   53
OIG CONTACT INFORMATION


Help ensure the integrity of SEC operations. Report to the OIG suspected fraud, waste or abuse in SEC pro-
grams or operations as well as SEC staff or contractor misconduct. Contact the OIG by:

phone 		         Hotline 		       877.442.0854
		               Main Office 	    202.551.6061

web-based	       www.sec-oig.gov/ooi/hotline.html
hotline 	


fax 		           202.772.9265

mail 		          Office of Inspector General
		               U.S. Securities and Exchange Commission
		               100 F Street, NE Washington, DC 20549

email 		         oig@sec.gov



Information received is held in confidence upon request. While the OIG encourages complaints to provide
information on how they may be contacted for additional information, anonymous compaints are also
accepted.




54   |   OIG SEMIANNUAL REPORT TO CONGRESS
